U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                   Review of Shooting Incidents
                   in the Department of Justice
                           I-2004-010

                            September 2004
                              EXECUTIVE DIGEST


      The Office of the Inspector General (OIG) evaluated how the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF); the Drug Enforcement
Administration (DEA); the Federal Bureau of Investigation (FBI); and the
United States Marshals Service (USMS) (collectively referred to in this report
as “the components”) reported, investigated, and reviewed shooting
incidents involving their Special Agents or Deputy Marshals. We assessed
whether the components adhered to the Department’s Policy Statement on
Reporting and Review of Shooting Incidents, September 21, 1995 (Resolution
13), which was established to ensure objective, thorough, and timely reviews
of shooting incidents involving federal law enforcement officers (LEOs). We
also assessed whether the components complied with their own internal
shooting incident policies and whether they complied with requirements to
report specific types of shooting incidents to the Department of Justice’s
(Department) Civil Rights Division (CRD) and to the OIG.1

RESULTS IN BRIEF

      In performing the Department’s law enforcement mission, the
Department’s components conduct operations such as executing search
warrants and arresting fugitives and other suspects. When performing their
duties, federal LEOs carry firearms and are authorized to use deadly force if
necessary to protect themselves and the public. Although firearm
discharges (other than for training) are infrequent, Resolution 13 requires
that every shooting incident be reported, investigated, and reviewed “to
determine the reasonableness of the application of deadly force in
accordance with DOJ policy and the law and to provide component senior
management with appropriate analyses, observations, and
recommendations concerning operational training, and other relevant
issues, including the need for referral for further administrative or
disciplinary review.” To carry out Resolution 13, the Department’s
components have established different procedures to ensure timely
reporting and to attempt to conduct objective, thorough, and timely
investigations and reviews of shooting incidents.

      Our review of 103 of the 267 shooting incidents that occurred in fiscal
years (FYs) 2000 through 2003 found that the components did not


       1  The portion of the ATF responsible for enforcing federal laws related to firearms,
explosives, and arsons was transferred from the Department of the Treasury to the
Department of Justice on January 24, 2003. Prior to this transfer, the ATF was not
required to adhere to Resolution 13.

U.S. Department of Justice                                                                i
Office of the Inspector General
Evaluation and Inspections Division
consistently report, investigate, and review shooting incidents according to
their own procedures.

       We also found significant differences in the way the components
conducted the criminal and administrative investigations of shooting
incidents. For criminal investigations, the ATF, the DEA, and the USMS
relied on state and local law enforcement agencies to conduct the
investigations. In contrast, the FBI conducted its own criminal investigation
in every case, sometimes by delegating the criminal investigation to the field
office to which the LEO involved was assigned. For administrative
investigations, the ATF and the USMS assigned headquarters teams to
conduct the investigation in every case. In contrast, the FBI and the DEA
delegated the administrative investigation of some shooting incidents to the
field office to which the LEO involved was assigned.

       While we found that the rights of LEOs involved in shooting incidents
were generally well protected, we noted that the issue of criminal
responsibility was not always clearly resolved. In some cases, declinations
of criminal prosecution were not obtained from state or federal authorities
as required by the components’ policies, and some LEOs were compelled to
provide administrative statements before the issue of criminal responsibility
had been fully resolved.

       The components’ shooting incident review processes differed as well.
The components’ Review Boards applied the standard for the reasonable use
of deadly force differently.2 The ATF, the DEA, and the FBI focused on the
moment that the LEOs decided to discharge their firearms. In contrast, the
USMS took into account the circumstances leading to the incident. These
different applications of the standard for the reasonable use of deadly force
can lead to different conclusions about similar shooting incidents. We also
found that some shooting incidents that should have been reported to the
CRD or the OIG under Department and component polices were not. In
addition, we found that the components’ Review Boards did not refer cases
for discipline in the same way, which affected the discipline imposed.
Finally, the components did not systematically share the lessons learned
from shooting incident reports, and the Department did not aggregate
shooting incident data to identify improvements to enforcement operations.


       2 The components’ policies on the standard for the use of deadly force are all based
on the Department’s Policy Statement on Use of Deadly Force, Resolution 14, approved by
the Attorney General on October 17, 1995. Resolution 14 stated: An LEO “may use deadly
force only when necessary, that is, when the officer has a reasonable belief that the subject
of such force poses an imminent danger of death or serious physical injury to the officer or
to another person.” The Department issued a revised deadly force policy on July 1, 2004,
which contains the same standard for the use of deadly force.

U.S. Department of Justice                                                              ii
Office of the Inspector General
Evaluation and Inspections Division
       Reporting of Shooting Incidents by LEOs. Each component
requires LEOs to immediately notify their supervisors when they discharge a
firearm.3 Supervisors are required to prepare a written report containing
specific information on the incident and submit it to headquarters within
one day. These initial reports provide managers the information necessary
to ensure that an appropriate investigation is initiated. In the 103 incidents
we reviewed, the LEOs immediately reported 100 of the shooting incidents.
In three instances, the LEOs either made a late report or admitted to
discharging their weapons only after the discharge had been under
investigation for a month or while testifying at the suspect’s trial.4

      We also found that some supervisors did not report shooting incidents
to headquarters as required by their component’s regulations. The ATF
requires a written report within 12 hours of an incident. The DEA and the
USMS require a report within 24 hours. The FBI requires an “immediate”
report by electronic communication. We used a standard of one day for our
review. We reviewed the files on 97 shooting incidents for copies of the
written report to headquarters; 11 did not contain the required written
report and in 1 file the report was undated.5 For the 85 incident files that
contained dated initial written reports, we found that 54 (64 percent) of the
reports were submitted within one day but that 31 (36 percent) were
submitted late. On average, ATF and FBI supervisors submitted the written
reports in one day, while DEA supervisors averaged two days and USMS
supervisors averaged three days.

      We asked USMS and DEA shooting incident investigators about the
delays. The USMS investigators stated that the USMS’s organizational
structure – 94 decentralized district offices – delayed its reporting process.
The DEA policies, provided by the DEA shooting incident investigators,
require at least three reports following a shooting incident. Overall we could
not validate that timely initial written reports were made in 43 of the 97
shooting incidents.

        3 The components’ policies require an LEO who discharges a firearm to report it

immediately and to provide information in support of immediate first aid and law
enforcement. This initial report is not intended to be a statement by the LEO involved of
the circumstances surrounding the shooting incident.

        4 Because delays made conducting shooting incident investigations in these cases

impracticable, two of the three incidents were investigated under the components’
discipline process for failure to report a firearms discharge.

       5  Three of the 103 incidents were not considered in our analysis because the LEOs
did not report them as required. Another three, from the FBI, were not considered because
FBI policy allows field supervisors up to ten business days to report unintentional
discharges in which no one is injured or killed. In the three cases subject to the 10-day
rule, there was no initial report in one case, one report was timely, and one was late.

U.S. Department of Justice                                                            iii
Office of the Inspector General
Evaluation and Inspections Division
        Reporting to the CRD and the OIG. In addition to internal reports,
the components must report shooting incidents involving potential
violations of federal civil rights statutes to the CRD and incidents involving
potential misconduct to the OIG. In 2000, the CRD established written
agreements with the DEA and the FBI that require them to report incidents
that result in injury or death.6 We examined the DEA’s and the FBI’s
reporting of shooting incidents to the CRD under those agreements, and we
found that the DEA reported 8 of 11 reportable shooting incidents and the
FBI reported 14 of 15 reportable shooting incidents. The DEA did not report
three incidents to the CRD because under the DEA’s procedures, its Office
of Professional Responsibility (OPR) is responsible for reporting potential
civil rights violations to the CRD, but the DEA’s shooting incident
investigators only forward to the OPR those cases that they determine might
involve misconduct. The investigators did not forward three incidents to the
OPR because, although they involved injury or death, the investigators did
not identify any potential misconduct. Consequently, the DEA did not
report the three shooting incidents to the CRD. The FBI could not explain
why one of its cases was not reported.

       The ATF and the USMS had no written agreements with the CRD to
report shooting incidents. However, the USMS Chief Inspector told us that
the USMS would report any shooting incidents involving a potential
violation of civil rights. Also, the ATF Special Agent in Charge,
Investigations Division, Office of Inspections, told us that the ATF would
report any shooting incident involving the allegation or suggestion of a civil
rights violation to the appropriate United States Attorney’s Office. In the 23
ATF and 22 USMS incident files we reviewed, we found no evidence (e.g.,
declinations of prosecution, memoranda, e-mails) of any reports to the CRD.
We found that the CRD did consider two USMS cases we reviewed, but not
because they were reported by the USMS. In one USMS shooting incident,
the CRD received an allegation of a civil rights violation from the suspect’s
family, and in another case, a United States Attorney consulted with the
CRD before deciding not to prosecute a Deputy Marshal. The ATF case files
contained no evidence that any of the 23 ATF cases resulted in a civil rights
complaint against an ATF Special Agent.

      We also found that the DEA and the FBI did not report many
reportable shooting incidents to the OIG. Of the 57 incidents from all

       6  See DEA - Cover letter from Section Chief Criminal Section, CRD, to Deputy Chief
Inspector DEA OPR, September 12, 2000, and attachment: Procedures for referral and
investigation of DEA incidents suggesting possible criminal civil rights violations. The DEA
agreement also lists incidents other than shootings that must be reported. See also FBI -
Letter from Section Chief Criminal Section, CRD, to Inspector Deputy Assistant Director
June 26, 2000.

U.S. Department of Justice                                                             iv
Office of the Inspector General
Evaluation and Inspections Division
components that were reportable to the OIG, we documented that the
components submitted formal reports on 35 of the incidents.7 The ATF and
the USMS informed the OIG of all of their reportable incidents (4 for the ATF
and 20 for the USMS), but the DEA reported only 4 of its 16 reportable
incidents and the FBI reported only 7 of 17 reportable incidents. The FBI
and the DEA did not report incidents that they initially determined were
unintentional discharges. However, excluding discharges initially reported
as unintentional from the reporting requirement can lead to a failure to
report a significant incident if the evidence developed in the investigation
shows that the discharge may have been intentional.

      To ensure that shooting incidents are properly reported to the OIG, on
July 27, 2004, the Assistant Inspector General of the Investigations Division
sent a memorandum to the ATF, the DEA, and the FBI describing
requirements for the reporting of firearms discharges. The reporting
requirements for the ATF, the DEA, and the FBI are now the same as those
established for the USMS in 1998.

       The Components’ Shooting Investigations. Resolution 13 requires
that shooting incident investigations avoid any appearance of a conflict of
interest or impropriety, present all the relevant information necessary for an
accurate and objective analysis, and be conducted expeditiously.
Components’ senior management is permitted to decide “[w]hether a
shooting inquiry will be conducted by investigators assigned to the field
office where the incident occurred or by investigators assigned to a
component headquarters Office of Inspection or other headquarters
element….” We found that the ATF and the USMS delegate the fewest
investigations. All 23 intentional and unintentional firearms discharges by
ATF Special Agents were investigated by an Office of Inspection team, and
all 22 shooting incidents involving Deputy Marshals were investigated by
the USMS Office of Internal Affairs (OIA). In contrast, the DEA and the FBI
delegated many shooting incident investigations. The DEA allowed 22 of its
37 shooting incidents that did not result in significant or life threatening
injuries, deaths, or other significant liabilities to be investigated by the DEA
field office to which the Special Agent was assigned. The FBI’s delegation
decisions were not based on the seriousness of the incident, but rather on
the extent of the Special Agent in Charge (SAC) or Assistant Special Agent in
Charge (ASAC) participation in the planning and operational events of the

       7 We removed from our analysis the three incidents that were not investigated
because the LEOs did not report them as required. We removed another 43 incidents that
were not reportable to the OIG because, in the case of the ATF, they occurred before that
agency transferred to the Department on January 24, 2003, or, for the DEA and the FBI,
because the incidents occurred prior to the issuance of Attorney General Order 2492-2001.
After removing these cases, 57 were reportable to the OIG.

U.S. Department of Justice                                                          v
Office of the Inspector General
Evaluation and Inspections Division
incident. Of the 39 FBI cases we reviewed, 2 were investigated by
headquarters, 21 were investigated by Inspectors in Place (IIP), and 16 were
assigned to the SAC.8

       During the criminal investigation of shooting incidents, Resolution 13
also requires “the recognition and accommodation, as appropriate under the
circumstances, of multiple interests and jurisdictions following a shooting
incident.” We reviewed 124 individual cases arising from 103 shooting
incidents (some incidents involved more than one LEO). The ATF, the DEA,
and the USMS told us that they always request state or local law
enforcement agencies with jurisdiction to conduct the criminal
investigations and only conducted a criminal investigation themselves if the
state and local agencies declined the request. We found that local law
enforcement agencies conducted the criminal investigations in 62 of the 85
cases involving LEOs of the ATF, the DEA, and the USMS.9 However, the
FBI conducted a criminal investigation into all 39 cases involving its Special
Agents, and state or local agencies conducted a parallel investigation in 12
of the 39 cases we reviewed. FBI investigators told us that they would not
discourage a local investigation and would cooperate with state or local
investigators, but that they do not request local criminal investigations and
that they conduct an FBI criminal investigation in every case.

       The ATF, DEA, and USMS shooting investigators said that they rely
on local investigations because the states have the primary authority and
responsibility to investigate and prosecute assaults, homicides, or other
felonies occurring in their jurisdictions, and allowing local authorities to
carry out their duties may preclude the need for an extensive federal
investigation. We asked the FBI shooting investigators why the FBI
conducts its own criminal investigations. They stated that, for cases
involving injury or death, the FBI’s agreement with the CRD requires it to
investigate any potential violation of civil rights and that policy has been
extended, by practice, to every shooting incident. Further, the FBI
investigators stated that the FBI had the resources to conduct investigations
in all cases. We found that the DEA has a similar agreement with the CRD,
however, and meets the requirement by submitting the local criminal
investigations to the CRD.



       8 An IIP is an inspector serving in a field office who can be assigned by the Chief
Inspector to investigate a shooting incident in another field office or in the same field office
to which the IIP is assigned. “During a shooting incident investigation [FBI policy states]
that the IIP will report directly to the Chief Inspector of the Office of Inspections.”

       9 State or local law enforcement declined to investigate 23 ATF, DEA, or USMS
shooting incidents that did not involve injury or death or that occurred on federal property.

U.S. Department of Justice                                                                 vi
Office of the Inspector General
Evaluation and Inspections Division
       After the criminal investigation is complete, each component requires
investigators to obtain a declination of prosecution from state or federal
prosecutors or otherwise to ensure that there is no criminal action pending
before completing the administrative investigation of a shooting incident.
Because declinations of prosecution are recorded in the case files, we were
able to evaluate the components’ compliance with their policies. We found
that the ATF did not obtain the required declination of prosecution in 4
cases, the DEA and the FBI did not obtain the required declination of
prosecution in 1 case each, and the USMS did not obtain the required
declination of prosecution in 17 cases.

       The ATF investigators acknowledged that they had not obtained the
required declinations in four cases due to an administrative oversight; these
four ATF cases involved shooting incidents where the suspect was not
injured or killed. The DEA investigators said that a declination of
prosecution was not obtained in one case because it involved a suspect who
eluded arrest until he was apprehended by local law enforcement one week
after the shooting incident. The suspect reported that he received a minor
wound during the shooting incident, but local law enforcement did not take
further action. The FBI could not explain why one of its cases was not
reported to the CRD for the required declination of prosecution. The USMS
told us that its policy of obtaining declinations of prosecution in every case
“needed to be more actively enforced.”

      During criminal investigations, LEOs have a constitutional right to
remain silent. But once the criminal investigation is complete, the
components can compel LEOs to provide statements for the administrative
investigation and can discipline the LEOs if they refuse to comply. If a
government agency compels an employee to provide a statement, it may use
the information from that statement to take administrative action against
the employee, but it may not use the information against the individual in a
criminal prosecution.10 In the 124 cases we reviewed, the components
compelled 30 administrative statements. The ATF and the DEA compelled
statements only when they needed information to complete the
administrative investigation, but the FBI and the USMS compelled an
administrative statement in every case in which the LEO declined to give a
voluntary statement, and, in some cases, compelled statements even though
voluntary statements had already been made.

      Our review of the case files also found that the components followed
substantially different practices for compelling administrative statements in
similar situations. In four FBI shooting cases, investigators compelled

       10However, an employee who makes a false statement in the compelled interview
may be criminally prosecuted for the false statement.

U.S. Department of Justice                                                       vii
Office of the Inspector General
Evaluation and Inspections Division
administrative statements (without declinations of prosecution) from Special
Agents involved in the shooting incidents for use in the criminal cases
against the suspects involved in the shooting incidents. In similar DEA
shooting incidents, the DEA did not compel the Special Agents involved to
provide administrative statements to support the prosecution of the
suspects. Instead, the DEA consulted with the Assistant United States
Attorney, and the Special Agents testified before the federal grand jury
considering the charges against the suspects. In the DEA and FBI cases,
the suspects were charged under 18 U.S.C. § 115 with assaulting the
Special Agents. Although these assaults may be related to shooting
incidents, both FBI and DEA policies require that the charges of assaulting
the LEOs be investigated separately, not as a part of the shooting incident
administrative investigation. The FBI case files included no explanation for
the FBI’s decision not to conduct a separate criminal investigation and to
rely instead on compelled administrative statements.

       The Components’ Review Board Process. Components established
Review Boards to examine the facts and quality of the shooting
investigation, determine the need for training improvements, and refer cases
for discipline. Resolution 13 requires that Review Boards be independent
and objective; that their decisions and recommendations be free of the
control or direction of component management; and that their members be
able to assess the facts without distortion. We found that the composition
of some Review Boards was less consistent with independent and objective
reviews and that the Review Boards applied the standard for the reasonable
use of deadly force differently.

      Two of the components’ Review Boards included members from
outside the component. The ATF Board included outside members from two
other law enforcement agencies. Board members told us that including
representatives from peer organizations helped ensure the independence
and objectivity of the ATF Boards in which they participated. The FBI’s
Review Board also includes an outside member from the CRD and a
Department attorney. We found that the ATF, FBI, and USMS Review
Boards included representatives from several levels of their organization.
We found, however, that the DEA’s Review Board is composed of three high-
ranking individuals who report directly to the DEA Deputy Administrator
and who are responsible for the operations being reviewed. Because the
DEA Review Board represents only the senior level of the DEA, we believe
the composition of the DEA’s Review Board might not be consistent with the
Resolution 13 requirement for an independent review.

     We also found that the components’ Review Boards applied the
standard for the reasonable use of deadly force differently. Of the 124 cases


U.S. Department of Justice                                             viii
Office of the Inspector General
Evaluation and Inspections Division
we reviewed, Review Boards considered 121 cases and, in 14 cases,
determined that the use of force was unreasonable. In 11 of the 14 cases (7
DEA cases and 4 FBI cases), the discharge of the firearm was unintentional.
In three cases, all involving USMS Deputy Marshals, the Review Board
found that an intentional discharge was unreasonable. The ATF, the DEA,
and the FBI Review Boards focused on the moment the LEOs decided to
discharge their firearms. In contrast, the USMS Review Board took into
account the circumstances that led to the incident. These different
approaches can lead to different conclusions about similar sets of facts. For
example, the ATF, DEA, and FBI approach would find reasonable the
actions of an LEO who failed to properly identify a suspect and consequently
shot an innocent civilian if, at the moment the LEO fired, he or she believed
that the civilian was the suspect and was acting in a threatening manner.
The USMS’s approach would find the same actions to be unreasonable
because the LEO had not taken steps to properly identify the individual.

       The Review Boards documented their findings and recommendations
in different ways. Resolution 13 requires Review Boards to make
“appropriate, timely recommendations to senior management … including, if
necessary, referral to appropriate entities for disciplinary review.” All of the
Review Boards prepared memoranda for senior management presenting
their findings on each case. Our review of 124 case files found that, for
almost all of the cases we reviewed, the memoranda prepared by the FBI
and USMS Review Boards effectively documented their findings and were
thorough. However, we found that the memoranda prepared by the ATF
and DEA Review Boards did not always provide senior management with
detailed analyses, observations, and recommendations concerning
operational training and discipline as required by Resolution 13 or the ATF
Orders in effect at the time.11

       Further, we found that the Review Boards referred cases for discipline
differently. 12 The USMS Review Board forwarded its cases to the USMS
Human Resources Office and allowed the Human Resources Office to make
any discipline referrals; the DEA Board referred cases for discipline without
making specific discipline recommendations; and the FBI Review Board

         11 ATF Order 0 8200.3 in effect from April 22, 1996, until November 3, 2000, and

superseding ATF Order 0 8200.3A, which took effect on November 3, 2000, and is still in
effect requires that the Review Board’s report include findings “relative to the following
issues: use of force, compliance with [ATF] policies and directives, and determinations of
wrongful or inappropriate actions of those involved in the shooting incident. The [Review
Board] will also make recommendations relative to needed changes to policy, directives,
equipment, training, supervision, and safety issues identified in the [report].”

       12 The ATF did not find the actions of any of its Special Agents to be unreasonable
and did not refer any cases for discipline.

U.S. Department of Justice                                                             ix
Office of the Inspector General
Evaluation and Inspections Division
referred cases for discipline with specific recommendations for discipline.
The way in which cases were referred affected the actual discipline imposed
by the components. For example, the FBI Review Board made specific
recommendations for discipline in each case it referred to the FBI OPR and
followed a policy of recommending a 3-day suspension for all unintentional
discharges. Consistent with those policies, the FBI Review Board
recommended a 3-day suspension (later increased to a 5-day suspension by
the deciding official) for a Special Agent who unintentionally discharged one
round into a dying suspect. In a similar case, a DEA Special Agent
unintentionally discharged her firearm, wounding a suspect and her
partner. The Review Board referred the case to the DEA Board of
Professional Conduct and the Special Agent received a Letter of Caution.

      Timeliness of Shooting Incident Reviews. Resolution 13 states
that prompt reporting, investigation, and review of shooting incidents are
important, although it does not establish specific standards for completing
shooting reviews. We reviewed the case files on 100 incidents to determine
how long the shooting review process took from the date of the shooting
incident to the date that a letter was sent to inform the LEO of the Review
Board’s decision. We found that the ATF and FBI averaged 176 and 184
days, respectively, and the USMS averaged 262 days to complete its
shooting reviews. The DEA took 442 days (Figure 1).


               Figure 1: Average Number of Days to Close Shooting
                                 Review Process


    ATF                               176


    DEA                                                             442


     FBI                              184


  USMS                                              262


           0           100            200             300   400           500
                                             Days

Source: OIG analysis of components’ shooting incidents.
      We recognize that the amount of time taken to complete an
investigation depends on the complexity of the incident and factors beyond


U.S. Department of Justice                                                x
Office of the Inspector General
Evaluation and Inspections Division
the control of the component. However, the files we reviewed did not
generally contain sufficient information to enable us to conduct a detailed
analysis of the reasons for the time taken. All of the components allow for
extensions of the time required for the report of the administrative
investigation, but the case files we reviewed did not contain documentation
to indicate that extensions were granted. Nonetheless, much of the
difference in the time required to complete shooting reviews appeared to be
due to the time it took for each component’s Review Board to meet after the
completion of the investigations. The average times ranged from 39 days at
the ATF to 226 days at the DEA. Only the ATF required its Review Board to
meet within a specified time period (60 days after the completion of a
shooting incident investigation). The other components did not require their
Boards to meet within a specified time period.13 According to DEA Office of
Inspection staff, the lengthy delays in convening the DEA Review Board were
due to difficulties in coordinating the busy schedules of the three high-
ranking officials on the Board.

       The lengthy review delays had at least two potential negative effects.
First, recommendations to senior management regarding operational,
training, and safety issues were delayed, which hindered management’s
ability to make prompt corrections. Second, lengthy delays increased the
time that LEOs remained under investigation, which could affect the LEOs’
careers because their promotions and transfers could be delayed until the
review was complete. The DEA recognized the potential adverse impact on
employees and established procedures to reduce the impact of the
investigation on promotions and transfers.

      Sharing Lessons Learned Among Components. Resolution 13
states that “operational, safety, training or other relevant issues disclosed
during the investigative or review process should be promptly
communicated to component employees, and must be incorporated in policy
manuals and training curriculae, as appropriate.” Resolution 13 also
requires that components conduct meaningful shooting incident data and
trend analyses.

      To communicate operational, safety, and training issues to LEOs, the
ATF prepared semiannual summaries of its shooting incidents that are
available to all employees on the ATF intranet. The DEA prepared annual
summaries of its shooting incidents that are available to employees on the
DEA intranet. The FBI began to prepare summaries of its shooting
incidents during the course of our review, and the effort was ongoing when

       13 During our review, the USMS Review Board decided to begin meeting on a
quarterly basis, beginning on March 1, 2004. Prior to our review, the USMS Board only
met when the Chairperson thought there were a sufficient number of cases to review.

U.S. Department of Justice                                                         xi
Office of the Inspector General
Evaluation and Inspections Division
we completed our fieldwork. In March 2004, the USMS Review Board
suggested to the Director that the USMS begin preparing shooting incident
summaries, and the USMS is implementing the Review Board’s
recommendations.

       Only the DEA could demonstrate that it incorporated lessons learned
from shooting incidents directly into its training curriculum. The
components’ training directors and supervisory firearms instructors we
interviewed said that their headquarters would notify them of any safety
issues disclosed during the investigative or review process and that they
would promptly incorporate safety issues in policy manuals and training
curricula. We found that only the DEA sends shooting incident files from its
Review Board directly to its training academy for operational and training
analysis and incorporation into the training curriculum. In contrast, the
ATF training staff did not receive the shooting incident files for review and
during our interview were unaware that shooting incident summaries were
available on the ATF’s intranet. The FBI training academy only retained the
preliminary reports of shooting incidents. The USMS supervisory firearms
instructor, who is a member of the Review Board, was prohibited from
discussing shooting incident reviews with anyone outside the Review Board,
including students. Consequently, the ATF, the FBI, and the USMS did not
ensure that lessons learned from shooting incidents were incorporated into
their training curricula. According to one USMS trainer, the lack of a
mechanism to incorporate lessons learned from shooting incidents into the
training provided at the training academy means that Deputy Marshals
must rely on “word of mouth” for lessons learned from shooting incidents,
and important details may be lost or inaccurately conveyed.

      We also found that the components did not share with each other
shooting incident information and that there is no formal process for
ensuring that shooting incidents are promptly reported across the
Department. Resolution 13 requires components to use statistical
techniques to describe, summarize, and compare shooting incident data and
to identify long-term patterns and changes that have occurred over time in
order to minimize risks to LEOs and public safety. However, during the
period we reviewed, the annual number of shooting cases involving the use
of deadly force never exceeded 16 in any component. Because the
components engaged in similar types of enforcement operations and had
similar types of shooting incidents, they could have benefited by sharing
with each other shooting incident information.

      Sharing information and Department-level aggregation could have
enabled the components to identify significant trends earlier. For instance,
we compiled the shooting incident data reported for all components over the


U.S. Department of Justice                                             xii
Office of the Inspector General
Evaluation and Inspections Division
last four years and found that more than half involved vehicles. In
November 2002, the USMS Review Board observed that Deputy Marshals
were frequently involved in shooting incidents while trying to arrest fugitives
in stopped vehicles and recommended that the USMS research “devices that
could be used to immobilize vehicles.” During that same time, the DEA also
identified vehicles as a principal factor in shooting incidents and conducted
research on vehicle containment. Had the components shared information
and lessons learned with one another, the DEA could have informed the
USMS that its research on vehicle containment found “that tire spike strips
and an intentional puncture of the subject vehicle’s tire(s) for the purpose of
preventing a subject from fleeing proved ineffective and unreliable.”14 The
DEA also could have shared the “active vehicle containment technique” that
the DEA developed in response to shooting incidents in order to make it
more difficult for suspects to use their vehicles as weapons against the
LEOs. Because the components did not share data or discuss shooting
incident lessons together, they each addressed similar issues independently.

CONCLUSIONS AND RECOMMENDATIONS

      We noted several areas in the components’ shooting review processes
that differed significantly. We believe that the results of our review should
be examined carefully by the components to identify areas that could be
improved and to ensure that shooting incidents are reported promptly,
investigated thoroughly, and reviewed by an objective and independent
Review Board.

      All of the components require a written report within one day so that
senior management can make investigative decisions, but, on average, only
the ATF and the FBI consistently met the requirement. Further, the FBI
and the DEA are required to report shooting incidents involving injury and
death to the CRD, and all the components are required to report shooting
incidents to the OIG, but neither the CRD nor the OIG was informed of all
reportable incidents.

       Three of the components – the ATF, the DEA, and the USMS – rely on
local law enforcement to conduct the criminal investigations of shooting
incidents, but the FBI conducts all its own criminal investigations.
Investigators assigned by the components’ headquarters conducted the
administrative investigation of every ATF and USMS shooting incident, but
the DEA and the FBI delegated the administrative investigation of some
shooting incidents to the field office to which the LEO involved was
assigned.

       14 DEA Deputy Administrator Memorandum, “Vehicle Containment and Vehicle-
Involved Arrest Procedures,” dated August 22, 2002.

U.S. Department of Justice                                                   xiii
Office of the Inspector General
Evaluation and Inspections Division
      While each of the components’ Review Boards prepares a
memorandum for every shooting incident reviewed, we found that only those
prepared by the FBI and USMS boards consistently included analysis and
recommendations specific to the incident being reviewed. We also found
that each component has different Review Board membership requirements,
ranging from only senior-level managers to outside law enforcement to non-
supervisory personnel. Outside representation on Review Boards can
improve objectivity and independence, and reduce inconsistencies among
the components. The ATF approach of including experienced LEOs from
peer law enforcement agencies appeared to enhance the independence and
objectivity of its Review Board.

       The most important difference in the components’ review of shooting
incidents was the lack of uniform application of the standard for
determining the reasonableness of the use of deadly force. The ATF, the
DEA, and the FBI Review Boards looked at the reasonableness of the LEO’s
belief that the suspect posed an imminent threat at the moment deadly
force was used. The USMS Review Board considered the reasonableness of
a Deputy Marshal’s actions as a whole, including the actions that created
the necessity for deadly force. As a result, Review Boards made different
decisions regarding the reasonableness of the use of deadly force for similar
shooting incidents. We believe that Review Boards should apply a uniform
Departmentwide standard for determining the reasonableness of the use of
deadly force.

       Overall, we found that the components varied substantially in the
time they took to complete the administrative investigation of shooting
incidents. The ATF averaged 176 days; the DEA, 442; the FBI, 184; and the
USMS, 262. Much of this difference appeared to be due to the time it took
for each component’s Review Board to meet after the completion of the
investigations. The average times ranged from 39 days at the ATF to 226
days at the DEA. Only the ATF required its Review Board to meet within a
specified time period (60 days after the completion of a shooting incident
investigation). The other components did not require their Boards to meet
within a specified time after the completion of investigations.

       Although the areas we identified need to be addressed to ensure the
effectiveness of the shooting review process, each component’s system had
strengths that the other components and the Department could use as
benchmarks to improve the shooting review process. Moreover, better
sharing and analysis of information on shooting incidents could identify
improvements to operational procedures and training.




U.S. Department of Justice                                             xiv
Office of the Inspector General
Evaluation and Inspections Division
      To better ensure timely, thorough, and objective reporting,
investigation, and review of shooting incidents, we recommend that the
Department:

1. Establish a working group to consider uniform Department
standards for the components’ shooting incident reviews. The
standards should include requirements regarding:

          A. Content and timeliness of preliminary shooting incident
             reports and investigations.

          B. Delegation of investigative responsibility, involvement of
             local authorities in criminal investigations of shooting
             incidents, and requirements for declination of
             prosecution.

          C. Composition of the Review Boards, application of the
             standard for determining the reasonableness of deadly
             force, and documentation of Review Board decisions.

          D. Aggregation within the Department of shooting incident
             data and lessons learned, including the preparation and
             distribution of shooting incident summaries.

       With regard to specific component practices, we recommend that the
components take the following actions to correct the specific weaknesses
identified in this report.

2. ATF Recommendations – We recommend that the ATF:

          A. Establish a formal reporting relationship with the CRD.

          B. Improve the documentation of Review Board findings and
             recommendations.

3. DEA Recommendations – We recommend that the DEA:

          A. Improve the consistency and timeliness of shooting
             incident reports.

          B. Ensure compliance with its CRD reporting agreements.

          C. Consider changing the composition of its Review Board and
             including outside members on its Review Board.


U.S. Department of Justice                                                xv
Office of the Inspector General
Evaluation and Inspections Division
          D. Improve documentation of Review Board findings and
             recommendations.

          E. Improve the timeliness of review of shooting incidents.

4. FBI Recommendations – We recommend that the FBI:

          A. Ensure compliance with its CRD reporting agreements.

          B. Establish specific criteria for when to delegate shooting incident
             investigations to field offices.

          C. Consider requesting local criminal investigation of shooting
             incidents and avoid duplication of local criminal investigations.

5. USMS Recommendations – We recommend that the USMS:

          A. Streamline its shooting incident reporting system to improve
             consistency and timeliness in reporting shooting incidents.

          B. Establish a formal reporting relationship with the CRD.

          C. Consider including outside members on its Review Board.

       We provided copies of this report to the ATF, the DEA, the FBI, the
USMS, and the Office of the Deputy Attorney General (ODAG) and requested
responses to the recommendations. The ATF, the DEA, the FBI, and the
USMS concurred with all of their respective recommendations, and the
ODAG concurred with the recommendation made to the Department as well
as all the recommendations made to the individual components. We
analyzed each response and have appended the responses and our analyses
to this report.




U.S. Department of Justice                                               xvi
Office of the Inspector General
Evaluation and Inspections Division
                                     TABLE OF CONTENTS


INTRODUCTION. ...................................................................................1

PURPOSE, SCOPE, AND METHODOLOGY .................................................................11

RESULTS OF THE REVIEW.................................................................16

        Reporting Shooting Incidents. .....................................................16
            Reporting to Supervisors ......................................................16
            Reporting to Headquarters ...................................................17
              Reporting to the CRD...............................................................................20
              Reporting to the OIG ............................................................21

        The Components’ Shooting Incident Investigations ......................24
            Delegation of the Shooting Incident Investigation .................24
             Criminal Investigation of Shooting Incidents .............................................25
             The Rights of the LEOs .............................................................................28
              Declinations of Prosecution .....................................................................29
              Compelled Statements .............................................................................30
              Timeliness of Shooting Incident Investigations.........................................31

        The Components’ Review Boards......................................................................34
              Review Board Composition...................................................34
              Timeliness by Component ....................................................36
              Review Standards ....................................................................................37
             Documentation of Findings and Recommendations ...................................39
              Referrals for Discipline ............................................................................40
              Overall Timeliness ...................................................................................42

        Sharing of Lessons Learned From Shooting Incidents..................44
            Incorporating Lessons Learned Into Training........................45
            Sharing of Information Among Components .........................46

CONCLUSIONS ....................................................................................47

RECOMMENDATIONS .........................................................................49


APPENDIX I:         Resolution 13 ...................................................................................51

APPENDIX II:             Sample of Shooting Incident Response Card ..............60

APPENDIX III:            ODAG Response ........................................................61




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IV:         OIG Analysis of the ODAG Response.........................63

APPENDIX V:          ATF Response ..........................................................64

APPENDIX VI:         OIG Analysis of the ATF Response ............................66

APPENDIX VII:        DEA Response..........................................................68

APPENDIX VIII: OIG Analysis of the DEA Response ...........................72

APPENDIX IX:         FBI Response ...........................................................75

APPENDIX X:          OIG Analysis of the FBI Response.............................80

APPENDIX XI:         USMS Response .......................................................84

APPENDIX XII:        OIG Analysis of the USMS Response.........................89




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                  INTRODUCTION


      The use of deadly force is one of the most serious actions an
individual law enforcement officer (LEO) can take in carrying out the
Department of Justice’s (Department’s) law enforcement mission.
Department policy requires that every shooting incident be reported,
investigated, and reviewed to determine the reasonableness of the
application of deadly force and to provide management with appropriate
recommendations to improve operational training and on other relevant
issues, including disciplinary action.

      Within the Department, different components conduct law
enforcement operations, including the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF); the Drug Enforcement Administration (DEA); the
Federal Bureau of Investigation (FBI); and the United States Marshals
Service (USMS).15 These enforcement operations include conducting
surveillance, executing search warrants, and arresting fugitives and other
suspects. In fiscal year (FY) 2003, these components made 86,765 federal
arrests while carrying out their law enforcement missions (Table 1).


                Table 1: Number of Federal Arrests, FY 2003

                                                         Enforce Federal Laws
  Component             LEOs           Arrests
                                                              Related to:
                                                       Alcohol, tobacco, firearms,
       ATF               2,407            9,239
                                                         explosives, and arsons
       DEA               4,640          26,594            Controlled substances

        FBI            11,751           14,742         Criminal acts and statutes

      USMS               3,342          36,190                 Fugitive felons

     TOTAL             22,140           86,765
Source: Components’ data.
Note: The portion of the ATF responsible for enforcing federal laws related to firearms,
explosives, and arsons joined the Department on January 24, 2003.

     The LEOs who enforce federal laws generally carry firearms. During
FY 2000 through FY 2003, the components reported that 267 shooting

       15 In addition, the Office of the Inspector General (OIG) has law enforcement

authority, but Special Agents of the OIG were not involved in any shooting incidents during
FY 2000 through FY 2003.

U.S. Department of Justice
Office of the Inspector General
                                                                                           1
Evaluation and Inspections Division
incidents occurred during enforcement and other operations, including
training, cleaning weapons, and while acting as Peace Officers.16 Of these
267 shooting incidents, 105 were intentional discharges at suspects during
enforcement operations, 14 were unintentional discharges during
enforcement operations, 60 were intentional discharges at animals
(e.g., vicious dogs, injured deer), and 88 were unintentional discharges
during non-enforcement activities (e.g., training, weapons cleaning). (See
figures 2 and 3.)


                Figure 2: Shooting Incident Types by Component,
                                 FY 2000 - 2003



      ATF        14             12       4       30


                                                                                                     95
     DEA                        38                     9             25              23



      FBI                  31                3                  43                        23
                                                                                               100

                                                           42
   USMS               22             2   8       10


            0               20                    40              60            80                   100

   Enforcement Operations Intentional                       Enforcement Operationals Unintentional
   Non-Enforcement Unintentional                            Animal Control

Source: OIG analysis of components’ shooting incident data, logs, and cases.




       16 LEOs can act as authorized “Peace Officers” under state law. The authority of

Peace Officers varies by state, but generally includes unplanned law enforcement actions
outside of the LEOs’ normal duties to protect the public, such as intervening in burglaries,
robberies, assaults, and other crimes that LEOs may encounter.

U.S. Department of Justice
Office of the Inspector General
                                                                                                       2
Evaluation and Inspections Division
      Figure 3: Shooting Incidents by Type, FY 2000 - FY 2003
                        Total Incidents: 267


  Animal Control                                                            Enforcement
      23%                                                                    Operations
                                                                             Intentional
                                       60        105                            39%

                                      88

                                                       14
        Non -
     Enforcement                                                         Enforcement
     Unintentional                                                        Operations
         33%                                                             Unintentional
                                                                              5%




Source: OIG analysis of the components’ shooting incident data, logs, and cases.
Note: An incident may involve more than one LEO or suspect.

Shooting Incident Reporting, Investigation, and Review

       Department policy requires that every discharge of any firearm by an
LEO, other than for training or recreation (e.g., hunting, target shooting),
must be reported, investigated, and reviewed. Since September 21, 1995,
the ATF, the DEA, the FBI, and the USMS have reviewed shooting incidents
using procedures established in accordance with the Department’s Policy
Statement on Reporting and Review of Shooting Incidents, commonly referred
to as Resolution 13 (see Appendix I).17 Resolution 13 requires senior
management to assess each firearm discharge to determine whether it was a
reasonable use of deadly force and to identify any needed improvements in
training, planning, and operational procedures. Resolution 13 established a
three-step shooting review process in which each shooting incident is
reported, investigated, and reviewed. Each of the components established
different procedures to implement the three-step process (Figure 4). After
completing the shooting incident review process, the components may
discipline the LEO using the components’ standard disciplinary process.




       17 The portion of the ATF responsible for investigating firearms, explosives, and

arsons was transferred from the Department of the Treasury to the Department of Justice
on January 24, 2003. However, the ATF has been subject to the same policies as the FBI,
the DEA, and the USMS since 1995.

U.S. Department of Justice
Office of the Inspector General
                                                                                     3
Evaluation and Inspections Division
   Figure 4: Shooting Incident Reporting, Investigation, and Review
                               Process




Source: OIG summary of components’ policies.
Terms in figure: SES - Senior Executive Service, SAC - Special Agent in Charge,
                 DUSM - Deputy U.S. Marshal.

       Reporting. Each component’s shooting incident policy requires LEOs
to immediately notify their supervisors when they discharge a firearm for
any reason other than training or recreation. Supervisors are required to
notify officials at headquarters immediately by telephone and to submit a
written report within, at most, 24 hours. The initial written report promptly
involves a designated senior manager in appropriate oversight of the
decisional and investigative process as required by Resolution 13. In
addition to internal reporting requirements, components may have to report
shooting incidents to other Department entities. Attorney General Order
2492-2001, July 11, 2001 (Order 2492), requires that “all evidence and non-
frivolous allegations of criminal wrongdoing and serious administrative
misconduct… shall be reported to the OIG.”

       Components also are required to report incidents involving potential
violations of federal civil rights statutes to the Civil Rights Division (CRD),
Criminal Section. Below are the reporting arrangements by component.

       •   The ATF reports shooting incidents to the OIG under Order 2492,
           but does not have an internal written policy requiring immediate

U.S. Department of Justice
Office of the Inspector General
                                                                                  4
Evaluation and Inspections Division
            reporting to the OIG. The ATF does not report shooting incidents
            to the CRD.

       •    The DEA policy implements Order 2492 and requires that the OIG
            be notified of shooting incidents so that the OIG can determine
            whether it will conduct an investigation of possible criminal or
            serious administrative misconduct. The DEA also has agreed to
            advise the CRD of all shooting incidents involving injury or death.18

       •    The FBI reports shooting incidents to the OIG under Order
            2492, but does not have internal written policies requiring
            immediate reporting to the OIG. The FBI has agreed to advise the
            CRD of all shooting incidents involving injury or death.19

       •    The USMS implements Order 2492 and requires that any shooting
            incident “which appears to constitute a violation of law, or
            Departmental regulations” be reported immediately to the OIG.
            Firearm discharges “other than by accident” must be reported
            within 48 hours, and accidental discharges must be reported
            monthly.20

       Investigation. Resolution 13 requires that the components investigate
shooting incidents to determine whether the shooting violated any law or
policy regarding deadly force or weapons safety. To examine any potential
violations of law, the ATF, the DEA, and the USMS generally rely on state
and local law enforcement agencies to conduct criminal investigations of
shooting incidents, while the FBI conducts its own criminal investigation of
each of its shooting incidents. All the components conduct their own
administrative investigations to identify violations of policy and needed
improvements in training and to support decisions regarding disciplinary
action (Figure 5).21
        18 Letter from Section Chief Criminal Section, CRD, to Deputy Chief Inspector, DEA

Office of Professional Responsibility, September 12, 2000, Procedures for Referral and
Investigation of DEA Incidents Suggesting Possible Criminal Civil Rights Violations.

       19 Letter from Section Chief Criminal Section, CRD, to Deputy Assistant Director of
Inspections Division, FBI, June 26, 2000.

       20  This reporting requirement was established in a memorandum from the
Assistant Inspector General for Investigations to the Director of the USMS (Guidelines for
Reporting Misconduct to the OIG, July 1, 1998). The reporting requirement is now included
in USMS policy (USMS Memorandum, Reporting Requirements: Allegations of Misconduct,
March 21, 2003).

        21 The OIG has jurisdiction to investigate misconduct in components, but generally

it does not conduct administrative reviews of shooting incidents and allows the components
to perform the investigations.

U.S. Department of Justice
Office of the Inspector General
                                                                                     5
Evaluation and Inspections Division
           Figure 5: Standard Shooting Incident Investigative Steps




Source: OIG summary of components’ policies.

       Each component has an Office or Division of Inspections responsible
for investigating shooting incidents.22 The internal investigators either
conduct the investigation, assign other investigative personnel to conduct
the investigation, or delegate the investigation to the field office to which the
LEO is assigned. Some component policies contain guidance for selecting
the investigative team, and other policies list the criteria for determining
whether to delegate the investigation.

       •    ATF policy requires that all incidents involving an intentional
            firearm discharge by an ATF employee or suspect, as well as
            unintentional firearm discharges by ATF employees, be
            investigated by an ATF Inspector.


       22 The USMS created its Office of Inspections during our review. See Memorandum

from Benigno G. Reyna, Director, USMS, to All USMS Employees, Establishment of the U.S.
Marshals Service Office of Inspections, March 4, 2004.

U.S. Department of Justice
Office of the Inspector General
                                                                                  6
Evaluation and Inspections Division
       •   DEA policy provides that shooting incidents involving death or
           significant injury usually will not be delegated to the field for
           investigation, but other shooting incidents can be delegated.

       •   FBI policy requires that shooting incident investigations “must be
           conducted under the direction of the Special Agent in Charge (SAC)
           when a weapon is discharged by FBI personnel unless
           circumstances necessitate the inquiry be conducted under the
           direction of an Inspector in Place [IIP].”23 The Assistant Director,
           Office of Inspections, determines who will have responsibility for
           the investigation through consultation with the SAC and the
           Assistant Director, Criminal Investigative Division. The
           determination is based on the extent of SAC or Assistant Special
           Agent in Charge (ASAC) participation in the planning and
           operational events of the incident.

       •   USMS policy requires that “an Administrative Shooting Review
           Team (ASRT) will be appointed by the Assistant Director of the
           Executive Services Division and the Investigative Services Division
           following each shooting incident. The ASRT may include
           representatives from other operational divisions.”

      The components’ policies also provide guidance for conducting
investigations, including what the shooting incident investigation files
should include and to whom the completed investigation should be
submitted. According to components’ policies, complete investigative files
should contain:

       •   The initial telephonic and written reports of the shooting incident;

       •   Reports by state or local criminal investigators;

       •   Medical and autopsy reports;

       •   Witness statements;

       •   Photographs and diagrams of the scene;

       •   Firearms qualification records for all LEOs who fired weapons; and


        23 An IIP is an inspector serving in a field office who can be assigned by the Chief

Inspector to investigate a shooting incident in another field office or in the same field office
to which the IIP is assigned. “During a shooting incident investigation [FBI policy states
that] the IIP will report directly to the Chief Inspector of the Office of Inspections.”

U.S. Department of Justice
Office of the Inspector General
                                                                                           7
Evaluation and Inspections Division
       •   An administrative report prepared by the shooting incident
           investigators with a synopsis of the background of the underlying
           case, the operation in which the shooting occurred, and a detailed
           account of the shooting incident.

The ATF, DEA, and USMS policies require that shooting incident
investigations be completed within 30 days of the incident. The FBI policy
requires that investigations be completed within two weeks of the incident.
All of the component policies allow for extensions.

      Both Resolution 13 and the components’ policies direct that the
investigation balance the importance of conducting an objective, thorough,
and timely investigation with the well being of the LEOs for whom shooting
incidents are traumatic events. Resolution 13 states:

       Shooting incident inquiries should be conducted with due
       regard for the physical, mental, and emotional well being of
       involved employees, their families, co-workers, and other
       persons, including victims and witnesses.

The components’ policies state that LEOs involved in shooting incidents will
be offered mental heath and medical examinations and be given time away
from normal enforcement duties. The ATF assigns Special Agents involved
in shooting incidents to administrative duties until they are cleared to
return to their regular duties. The DEA assigns Special Agents to light duty
for a period of five days, which may be extended for an additional five days.
The FBI encourages Special Agents to take five days of administrative leave.
Deputy Marshals return to work only when directed to do so by their
supervisors.

      Review. When a shooting incident investigation is complete,
Resolution 13 and the components’ policies require a Review Board to:

       •   Provide an independent and objective administrative check and
           balance on the reporting and investigative process;

       •   Determine the reasonableness of the application of deadly force in
           accordance with the Department’s deadly force policy and the law;

       •   Provide appropriate analyses, observations, and recommendations
           concerning operational training; and

       •   Close the case or refer the case for further administrative or
           disciplinary review.


U.S. Department of Justice
Office of the Inspector General
                                                                            8
Evaluation and Inspections Division
The specific structure, staffing, and decisions of each component Review
Board are discussed below.

      ATF. The ATF’s Assistant Director for Inspections chairs its Shooting
Incident Review Board (SIRB). The SIRB members include one of the three
Deputy Assistant Directors for Field Operations (East, West, or Central), the
Associate Chief Counsel, the Assistant Director for Training and
Professional Development, the Chief of the Special Operations Division, and
two senior-level managers from other federal law enforcement agencies. In
addition to shooting incidents, the SIRB reviews less-than-lethal munitions
discharges.24 Board members receive advance copies of all investigations
scheduled for review before the meeting. The SIRB determines if each
incident was “justified” or “unjustified” and refers unjustified incidents to
the ATF’s Professional Review Board for discipline.

      DEA. The DEA’s Shooting and Assault Incident Review Committee
(SAIRC) is chaired by the Chief Inspector, Inspections Division, and includes
the Chief of Operations (Vice-Chairperson) and the SAC of the Office of
Training. The SAIRC reviews all shooting incidents except those
investigated as misconduct matters by the DEA’s Office of Professional
Responsibility (OPR). SAIRC members do not receive material in advance of
meetings, but instead receive presentations at the meetings from the
inspector responsible for the shooting incident investigation. If the SAIRC
does not find the use of force “justified,” it may declare the shooting
“unjustified,” refer the case to the OPR for further investigation of suspected
misconduct, or forward the case to the disciplinary Board of Professional
Conduct without a finding.

       FBI. The FBI’s Shooting Incident Review Group (SIRG) includes up to
13 members representing various divisions and positions within the FBI.
The Deputy Assistant Director of the Inspections Division is the
chairperson, and the Chief Inspector of the Office of Inspections serves as
the alternate Chairperson. Other members include representatives from the
Criminal Investigative Division, National Security Division, Training
Division, Personnel Division, Office of General Counsel, Laboratory Division,
and a Field Supervisor from Washington, D.C. (preferably one who has been




       24 Both the ATF Special Response Team and the USMS Special Operations Group

use 12-gauge shotguns to fire small fabric bags filled with lead shot. These “beanbag
rounds” are used as a “less lethal” response where force is authorized but deadly force is
undesirable. The ATF reports and reviews the use of beanbag rounds, but the USMS does
not. The DEA and the FBI do not use beanbag rounds.

U.S. Department of Justice
Office of the Inspector General
                                                                                      9
Evaluation and Inspections Division
involved in a shooting). The SIRG also includes an outside member from
the CRD and a Department attorney.25

       The complete investigative case file for each incident to be reviewed is
sent to Review Board members in advance of the meeting. The SIRG reviews
every shooting incident and decides whether the firearm discharge was
justified or unjustified.26 The SIRG also prepares a memorandum to the
Assistant Director for Inspections summarizing each case. The SIRG may
also make recommendations for discipline, and in those cases, the SIRG
memorandum is provided to the OPR for further action.

       USMS. The USMS Shooting Review Board (SRB) is chaired by a U.S.
Marshal and includes a Chief Deputy U.S. Marshal, a Supervisory Deputy
U.S. Marshal, a supervisory or management rank representative from the
USMS’s Judicial Security Division, a supervisory or management rank
representative from the USMS’s Investigative Services Division, a USMS
Instructor from the Federal Law Enforcement Training Center (FLETC), and
a Deputy Marshal. All SRB members are appointed to 2-year terms, which
may be extended. All voting members must be LEOs with at least four years
of law enforcement experience. The SRB also includes a representative of
the USMS Office of the General Counsel as a nonvoting member. In
advance of USMS Review Board meetings, members receive electronic copies
of the complete investigative case file for each case. The SRB reviews all
shooting incidents, except those involving the use of less-than-lethal
munitions and determines whether each firearm discharge was authorized
or unauthorized. The SRB produces a report for the USMS Deputy Director
describing its determination and the basis for the decision in each case.




       25    The OIG also participated on the FBI’s Review Board, but in April 2004 withdrew
from participation because such participation could pose an appearance of conflict of
interest if the OIG were required to review the conduct of a specific Review Board.

       26 The FBI Manual of Investigative Operations and Guidelines requires that the

Review Board first decide whether a firearm discharge was intentional or unintentional. We
did not find that this is currently the practice of the Review Board.

U.S. Department of Justice
Office of the Inspector General
                                                                                      10
Evaluation and Inspections Division
                   PURPOSE, SCOPE, AND METHODOLOGY


Purpose

       This review evaluated how the ATF, the DEA, the FBI, and the USMS
reported, investigated, and reviewed shooting incidents involving Special
Agents or Deputy Marshals. We assessed whether the components adhered
to the Department’s shooting incident review policy, Resolution 13, which
requires “appropriate, consistent operational guidelines” to ensure objective,
thorough reporting, investigation, and review of shooting incidents involving
LEOs. We also assessed whether the components complied with their own
internal shooting incident policies.

Scope

       We reviewed shooting incidents involving Special Agents or Deputy
Marshals that occurred during FY 2000 through FY 2003. We used two
criteria to determine which components to include in the review:

       •    Components subject to Resolution 13 and

       •    Components that routinely engaged in enforcement activities such
            as arrests and the execution of search warrants.

The ATF, the DEA, the FBI, and the USMS met these criteria.27 The Federal
Bureau of Prisons (BOP) is subject to Resolution 13, but because the BOP
does not allow its personnel to leave correctional facilities with firearms
except in special situations and does not routinely engage in enforcement
activities, we did not include the BOP in this report.28

      We reviewed all intentional and unintentional firearm discharges with
and without injury or death resulting from the application of deadly force
during enforcement operations. Not all of the 267 reported shooting
incidents that occurred during FY 2000 through FY 2003 were reported,
investigated, and reviewed by the components in the same way. The
components’ policies define deadly force as the use of any force that is likely



       27 The portion of the ATF responsible for enforcing federal laws related to firearms,
explosives, and arsons was transferred from the Department of the Treasury to the
Department of Justice on January 24, 2003. Prior to this transfer, the ATF was not
required to adhere to Resolution 13.

      28 The OIG also met these criteria, but did not have any shooting incidents during

FY 2000 through FY 2003 and was not included in the review.

U.S. Department of Justice
Office of the Inspector General
                                                                                        11
Evaluation and Inspections Division
to cause death or serious physical injury.29 We considered all firearm
discharges occurring when a weapon was drawn to be instances of the use
of deadly force. Accordingly, we analyzed operational firearm discharges
regardless of whether death or injury resulted or whether the discharge was
later determined to be intentional or unintentional. To ensure that we
reviewed only cases that were comparable, we excluded:

       •   Incidents that occurred outside of U.S. territory and were therefore
           subject to the U.S. Department of State’s review policies;

       •   Incidents in which an LEO fired at an animal;

       •   Incidents unrelated to law enforcement duties that resulted in the
           criminal conviction of the LEO;

       •   Unintentional firearms discharges during training exercises or
           weapons cleaning;

       •   Unintentional discharges from handling or clearing seized
           weapons; and

       •   Incidents involving less-than-lethal ammunition, such as beanbag
           rounds.

      Of the 267 shooting incidents, 114 fit our criteria. Eleven were still
under investigation or review when we concluded our fieldwork on May 21,
2004, and were not included in our analysis. Our report, therefore, is based
on 103 incidents.

        In conducting our analyses, we distinguished between incidents and
cases because some incidents involved more than one LEO. For example, in
one incident, seven Special Agents discharged their weapons while trying to
serve a warrant on an individual who was barricaded in a house and
shooting at the Special Agents and local police officers. The ATF, the DEA,
and the FBI do not distinguish between incidents and cases, and create one
file for each shooting incident even if multiple LEOs discharged their
weapons. In contrast, the USMS creates a separate case file for each
Deputy Marshal who discharged a firearm during an incident. We use the
term “incident” to describe one event, even if more than one LEO discharged
a weapon. We use the term “case” to refer to the individual LEO who

        29 The components’ policies are based on the commentary to the Department’s

Policy Statement Use of Deadly Force, referred to as Resolution 14, approved by the Attorney
General on October 17, 1995. The Department issued a revised deadly force policy on
July 1, 2004. The new policy does not include a commentary.

U.S. Department of Justice
Office of the Inspector General
                                                                                      12
Evaluation and Inspections Division
discharged a weapon. If multiple LEOs fired during the same incident,
multiple cases resulted. After reviewing the components’ files, we identified
124 cases within the 103 incidents that met our criteria (Figure 6).



              Figure 6: Total Shooting Cases in the OIG's Review

      140

      120

      100

       80

       60

       40

       20

          0
                2000           2001           2002            2003     TOTAL
    ATF           5              9              3              6         23
    DEA           16            10             11              3         40
    FBI           6             16              6              11        39
    USMS          2              8              7              5         22

Source: OIG analysis of components’ shooting incident data.

       The 124 cases we reviewed encompassed a variety of enforcement
activities in each of the components, as shown in Table 2.


              Table 2: Cases by Type of Activity and Component
                                      Stings:
                      Arrests:                            Peace
Component                            buy/bust                        Total Cases
                warrant/surveillance                      Officer
                                     or other
    ATF                  19              1                     3         23
    DEA                  16             19                     5         40
    FBI                  28              6                     5         39
   USMS                  19              0                     3         22
   TOTAL                 82             26                    16        124
Source: OIG analysis of components’ shooting incident data.


U.S. Department of Justice
Office of the Inspector General
                                                                               13
Evaluation and Inspections Division
Methodology

Data Collection

      Each component provided the number of shooting incidents that
occurred during FY 2000 through FY 2003, the number of full-time LEOs,
and all shooting investigative and review policies in effect during the period
covered by the review. To obtain information on firearm discharges reported
by the components, we collected data from the OIG’s Investigations Data
Management System (IDMS) database and from the CRD.

Interviews

       We conducted in-person interviews with shooting incident
investigators and Review Board members from all four components. We
also interviewed representatives from the CRD and firearms instructors from
the ATF, DEA, FBI, and USMS training academies.

Site Visits

       We visited the FLETC in Glynco, Georgia, and the DEA and FBI
training academies in Quantico, Virginia, to determine how and to what
extent components integrate lessons learned from shooting incidents into
their training curricula.

Background Research

      Our review of background research on the shooting incident review
process included:

       •   Government Accountability Office, Use of Force: ATF Policy,
           Training and Review Process Are Comparable to DEA’s and FBI’s.
           Report number GGD-96-17, March 1996;

       •   International Association of Chiefs of Police, Model Policy on Use of
           Force, Effective Date August 2001, Reevaluation Date August
           2002;

       •   International Association of Chiefs of Police, Model Policy on
           Investigation of Officer Involved Shootings, Effective Date November
           1998;

       •   International Association of Chiefs of Police, Model Policy on
           Reporting Use of Force, Effective Date February 1997, Reevaluation
           Date February 1998;

U.S. Department of Justice
Office of the Inspector General
                                                                            14
Evaluation and Inspections Division
       •   Newspaper articles reporting shootings incidents involving LEOs;
           and

       •   Law Enforcement Executive Forum, New Challenges for Law
           Enforcement Professional Standards, 2003.

File Review

       For each component, we reviewed shooting incident and case files
involving a firearm discharge during an enforcement operation, recorded the
relevant dates for the steps of the process from reporting through discipline
referral, evaluated whether the file contained documentation that the
component’s shooting investigations policy had been followed, and
determined if the actions taken were timely.

      To assess timeliness, we compared the time taken by the components
to complete each step to the components’ regulations. To evaluate the
timeliness of reports of shooting incidents to the OIG, we averaged the
number of days it took for each component to report the incidents.

      We did not reinvestigate any of the incidents we reviewed, and we did
not reevaluate the decisions made by any of the Review Boards. However,
we did compare and contrast the Review Boards’ findings on the use of
deadly force and recommendations for discipline.30




       30 The OIG is conducting a series of reviews on the disciplinary processes of the

Department’s components. The USMS review, Report Number I-2001-011, was completed
in September 2001, and the DEA review, Report Number I-2004-002, was completed in
January 2004. The Review of the Federal Bureau of Prisons' Disciplinary System (I-2004-
010) was completed in September 2004, and reviews of the ATF and the FBI discipline
processes are planned.

U.S. Department of Justice
Office of the Inspector General
                                                                                    15
Evaluation and Inspections Division
                         RESULTS OF THE REVIEW


       We found that the ATF, the DEA, the FBI, and the
       USMS have different policies and practices for
       reporting, investigating, and reviewing shooting
       incidents involving law enforcement officers (LEOs).
       Although we found that LEOs reported most shooting
       incidents, the field offices did not always report
       shooting incidents to headquarters within the time
       required and did not consistently report shooting
       incidents to the Office of the Inspector General or the
       Civil Rights Division. The components also conducted
       shooting incident investigations differently. The ATF
       and the USMS conducted a headquarters investigation
       in every case, while the DEA and the FBI delegated
       some investigations to field offices.           The FBI
       conducted its own criminal investigations in every
       case, while the ATF, the DEA, and the USMS requested
       that local law enforcement agencies conduct the
       criminal investigations of their shooting incidents.
       The components used different standards for obtaining
       declinations of prosecution and for compelling
       statements during administrative investigations. In
       addition, the components’ Review Boards applied the
       standard for the reasonable use of deadly force
       differently and referred cases for discipline in different
       ways. The components did not systematically share
       the lessons learned from shooting incident reports,
       and the Department did not aggregate shooting
       incident data to identify needed improvements to
       training.


Reporting to Supervisors, Component Headquarters, the CRD,
and the OIG.

      Reports of shooting incidents to supervisors. Every component
requires LEOs to report all firearm discharges (other than for training or
recreation) to their supervisors immediately after they occur because an
immediate report by the LEO is essential to begin the investigative process.
In the 103 incidents we reviewed, the LEOs immediately reported 100 of the
shooting incidents. However, in three cases, LEOs failed to report shooting
incidents as required. In those three incidents:


U.S. Department of Justice
Office of the Inspector General
                                                                        16
Evaluation and Inspections Division
       •    A DEA Special Agent failed to report that he discharged his weapon
            during an enforcement operation. After a month-long investigation
            into the unexplained gunfire heard by other LEOs at the scene, the
            Special Agent admitted to investigators that he had fired his
            weapon. The Special Agent received a 30-day suspension for
            failing to report the firearm discharge immediately.

       •    A DEA Special Agent failed to report that he discharged his weapon
            during an enforcement operation. Six months later, while
            testifying at the suspect’s trial, the Special Agent admitted to
            discharging his weapon. The Special Agent received a 35-day
            suspension for failing to immediately report the firearm discharge.

       •    An FBI Special Agent waited one day to report that he had
            unintentionally discharged his weapon outside his residence while
            chasing a burglar. The Special Agent received a 5-day suspension
            for failing to exercise appropriate firearms safety and failing to
            report the incident immediately.

       Two of these three incidents were not investigated fully because a
shooting incident investigation was no longer practicable when the shooting
incident was discovered. According to the DEA Chief of Inspections, failure
to report the incidents immediately constituted misconduct. Therefore, the
Office of Inspections transferred these two investigations to the DEA’s OPR.
The OPR conducted misconduct investigations and imposed discipline.

       Field office reporting of shooting incidents to headquarters. The
components require timely written reports so that senior managers can
oversee the investigative process. Following the immediate reporting of a
shooting incident by an LEO, each component requires the LEO’s supervisor
to submit an initial written report on the shooting incident to headquarters
within one day.31 Of the 103 incidents we reviewed, we were able to analyze
97 for timeliness. We did not consider in our analysis the above three
incidents that were not reported as required and an additional three from
the FBI because a SAC may classify a shooting incident as unintentional
and, if no one is injured or killed, an immediate report is not required.32 We
reviewed the files of the remaining 97 incidents for copies of the written

       31 The ATF and the DEA require a written report within 12 hours of the incident.
The USMS requires a written report within 24 hours. The FBI requires an immediate
written report by electronic communication.

        32 The field office has ten business days to report incidents classified as

unintentional if no injury or death is involved. In the three cases subject to the 10-day
rule, there was no initial report in one case, one report was timely, and one was late.

U.S. Department of Justice
Office of the Inspector General
                                                                                        17
Evaluation and Inspections Division
report to headquarters. Of the 97 incident files, 11 did not contain the
required written report, and in 1 file the report was undated. Although
these 12 files contained evidence of telephone calls and e-mails informing
headquarters of the shooting incidents, these informal communications did
not include all the information that the components require in the formal
written report (Figure 7).


               Figure 7: Missing or Undated Written Shooting
                    Incident Reports, FY 2000 - FY 2003


                                        13
    ATF
                      3


                                                                               35
    DEA              3


                                                                          29
     FBI                  5


                                                        20
  USMS         1


           0          5        10        15        20          25    30         35

                   Missing or Undated Reports   Total Number of Reports
Source: OIG analysis of components’ shooting incident files.

      For the 85 incident files that contained dated initial written
reports, we examined how long the supervisors took to submit the
reports to headquarters. Of the 85 incidents, a formal written report
was submitted within one day in 54 of the incidents (64 percent). On
average, the ATF and the FBI met the 1-day reporting requirement,
while DEA and USMS supervisors took two to three days on average
to submit the reports (Figure 8).




U.S. Department of Justice
Office of the Inspector General
                                                                                    18
Evaluation and Inspections Division
         Figure 8: Average Number of Days to Submit Initial Written
                 Report to Headquarters, FY 2000 – FY 2003



 ATF                       1




                                           2
 DEA



                           1
 FBI




USMS                                                       3



     0                1               2             3                 4              5
Source: OIG analysis of components’ shooting incident files.
Note: Reporting time is measured in complete days following the day of the incident.
Reports submitted on the day of the incident were counted as zero days to report, reports
submitted on the following day were counted as one day to report, etc.

       We discussed the reporting delays with each of the components. The
USMS staff stated that the USMS organizational structure was one factor
that delayed the reporting process, because the USMS has 94 decentralized
district offices, each of which rarely has a shooting incident. The DEA
policies, provided by the DEA shooting incident investigators, require at
least three reports following a shooting incident:

          •   Based on an initial telephonic report, DEA headquarters may
              designate a shooting incident as a “critical incident.” If this
              happens, the SAC is required to send a “preliminary shooting
              incident report” to headquarters within six hours. We found
              these critical incident reports in 26 of the 35 DEA incident files.
              A critical incident report may not have been required in the
              remaining nine cases, but we did not find any documentation of
              the critical incident decisions.

          •   In every shooting incident, the SAC must send an electronic
              communication describing the shooting incident to
              headquarters within 24 hours. We found an electronic

U.S. Department of Justice
Office of the Inspector General
                                                                                      19
Evaluation and Inspections Division
               communication from the SAC in 33 of 35 incident files and used
               this initial written report for our timeliness assessment.

           •   Finally, the Shooting Incident Investigator must submit a
               Report of Shooting Incident after completing the investigation.
               We found a Report of Shooting Incident in 30 of the 35 incident
               files.

       Overall, we identified an initial written report in 85 of the 97
incidents. We found no dated, initial written report in 12 cases, and in 31
of the 85 incidents the initial reports did not meet the 1-day deadline. As a
result, in 43 of 97 cases (44 percent) we could not validate that senior
managers received the written information in time to use it for oversight of
the investigation.

       Reporting shooting incidents to the CRD. The Department’s CRD has
the authority to review and prosecute complaints of violations of federal civil
rights statutes, including complaints related to the shooting incidents we
reviewed. In 2000, the CRD established written agreements with the DEA
and the FBI that require them to report to the CRD shooting incidents
resulting in injury or death.33 The CRD does not have similar written
agreements with the ATF or the USMS.

        We examined the DEA’s and the FBI’s compliance with the agreed upon
reporting requirements. Since the FBI’s agreement went into effect, 15 FBI
shooting incidents have resulted in injury or death. The FBI reported 14 of
these 15 shooting incidents to the CRD. The FBI could not explain why one
of its cases was not reported. Since the DEA’s agreement went into effect, 11
DEA shooting incidents resulted in injury or death. The DEA reported 8 of
these 11 shooting incidents to the CRD. The DEA did not report three
incidents to the CRD. Under the DEA’s procedures, its OPR is responsible for
reporting potential civil rights violations to the CRD. However, DEA’s
shooting incident investigators do not forward to the OPR those cases that
they determine do not involve misconduct. The investigators never forwarded
the three incidents to the OPR because, though they involved injury or death,
the investigators did not identify any potential misconduct. Under the
procedures in effect at the time, the OPR did not receive separate notice of
shooting incidents.


        33 See DEA - Cover letter from Section Chief Criminal Section, CRD, to Deputy

Chief Inspector, DEA OPR, September 12, 2000, and attachment: Procedures for referral
and investigation of DEA incidents suggesting possible criminal civil rights violations. The
DEA agreement also lists incidents other than shootings that must be reported. See also
FBI - Letter from Section Chief Criminal Section, CRD, to Deputy Assistant Director of
Inspections Division, FBI, June 26, 2000.

U.S. Department of Justice
Office of the Inspector General
                                                                                         20
Evaluation and Inspections Division
       The ATF and the USMS have no written agreements with the CRD to
report shooting incidents. However, the USMS Chief Inspector told us that
the USMS would report any shooting incidents involving a potential
violation of civil rights. Also, the ATF Special Agent in Charge,
Investigations Division, Office of Inspection, told us that the ATF would
report any shooting incident involving the allegation or suggestion of a civil
rights violation to the appropriate United States Attorney’s Office. We found
no evidence (e.g., declinations of prosecution, memoranda, telephone
records, e-mail) in the ATF and USMS incident files of any reports provided
to the CRD. We also found that the CRD considered two USMS cases we
reviewed, but not because they were reported by the USMS. In one USMS
shooting incident, the CRD received an allegation of a civil rights violation
from the suspect’s family, and in another, a United States Attorney
consulted with the CRD before deciding not to prosecute the Deputy
Marshal. The ATF case files contained no evidence that any of the 23 ATF
cases resulted in a civil rights complaint against an ATF Special Agent.

       In addition to the inconsistency among the components in reporting
to the CRD, we found that the DEA’s and the FBI’s agreements with the
CRD do not ensure that all incidents with the potential to result in civil
rights complaints were reported to the CRD. As noted, the DEA and the FBI
agreed to report to the CRD all shooting incidents that resulted in injury or
death. However, incidents without injury or death that are not reported to
the CRD may still result in allegations of civil rights violations. In one
incident we reviewed, a suspect, who was not injured, made a civil rights
complaint after local authorities arrested him. The suspect alleged that an
FBI Special Agent unnecessarily shot at him as he eluded arrest by the FBI
Special Agent. As this case illustrates, firearm discharges that do not cause
injury or death may result in complaints of civil rights violations by LEOs
that the CRD should review.

       Reporting shooting incidents to the OIG. Attorney General Order
2492-2001 (Order 2492) requires components to report to the OIG “evidence
and non-frivolous allegations of criminal wrongdoing and serious
administrative misconduct by Department employees” so that the OIG may
decide whether to exercise its statutory authority to investigate the matter
or to delegate the investigation to the component. All shooting incidents
have the potential to involve criminal wrongdoing or serious administrative
misconduct. Of the 103 incidents we reviewed, 46 were not reportable to
the OIG because they occurred before this OIG had the authority to
investigate misconduct involving FBI and DEA employees.34


       34 Order 2492 gave the OIG the authority to investigate criminal wrongdoing and

serious administrative misconduct in the DEA and the FBI on July 11, 2001. The ATF has
been required to report shooting incidents to the OIG since it was transferred to the

U.S. Department of Justice
Office of the Inspector General
                                                                                 21
Evaluation and Inspections Division
       Of the incidents we reviewed, 57 were reportable to the OIG. We
found documentation in the files that the components submitted formal
reports in 35 of the 57 reportable incidents (61 percent). The USMS and the
ATF reported every incident, but we found no documentation for more than
half of the DEA and FBI incidents (Figure 9).


                Figure 9: Shooting Incidents Reported to the OIG


                            4
     ATF                    4

                                                                           16
     DEA                    4

                                                                                17
      FBI                              7


                                                                                     20
   USMS                                                                              20

            0                5                  10                 15                  20

                         Documented Reports      Reportable Incidents

Source: OIG analysis of components’ shooting incident data.

       The average time that each component took to formally report
shooting incidents to the OIG ranged from 7 to 205 days. The ATF, the
DEA, and the USMS reported most shooting incidents to the OIG within a
few days, but the FBI did not formally report its incidents to the OIG until
after the report of the administrative investigation of the shooting incident
was submitted to the FBI Review Board (Figure 10).35




Department on January 24, 2003. The USMS has been required to report shooting
incidents to the OIG since July 1, 1998.

       35  The USMS included copies of formal reports and recorded the delegation of
investigative authority received from the OIG in its investigative files. Because the USMS
recorded the date it reported to the OIG, we were able to verify that the report date listed by
the USMS was within one business day of the date the OIG reported being informed of the
case. The ATF’s Inspections Division established the practice of reporting all shooting
incidents to the Treasury OIG and continued that practice when the ATF moved to the
Department on January 24, 2003.

U.S. Department of Justice
Office of the Inspector General
                                                                                            22
Evaluation and Inspections Division
            Figure 10: Average Time to Report Shooting Incidents
                                 to the OIG



                 14
      ATF


                 8
      DEA


                                                                    205
       FBI


                 7
    USMS


             0         50             100        150          200         250


Source: OIG analysis components’ shooting incident files and IDMS data.

      The USMS reported all shooting incidents as required, and after
reviewing the reports, the OIG delegated all of the investigations back to the
USMS. Although the ATF, the DEA, and the FBI did not consistently
provide timely written reports, the OIG ASACs who are the primary liaisons
to each component’s internal affairs unit told us that they visit those
components’ headquarters regularly and review the components’ internal
shooting incident reports. The ASACs said that they base their decisions to
delegate shooting incident investigations on their review of these reports, as
well as other interactions with component staff, and annotate the
components’ files to indicate the OIG decision.

       We also found that the components had different interpretations of
what constituted a shooting incident reportable to the OIG. The ATF and
the USMS reported all shooting incidents to the OIG. In contrast, when the
FBI and the DEA determined initially that a shooting incident was
unintentional, they did not report it to the OIG. This practice can lead to
failing to report an incident that should be reported. In one case we
reviewed, which occurred prior to the OIG obtaining jurisdiction to
investigate FBI and DEA employees, a DEA Special Agent at the shooting
scene stated that he unintentionally discharged his weapon. This case
would not have been reported to the OIG under current DEA procedures.
However, in a later statement to the local authorities, the Special Agent gave
a different version of events and stated that he intentionally discharged his
firearm because he feared for his life. Intentional discharges of this kind are
now reportable under DEA procedures.

U.S. Department of Justice
Office of the Inspector General
                                                                                23
Evaluation and Inspections Division
       Overall, we found that the components did not report to the OIG 22 of
the 57 reportable shooting incidents. Moreover, the FBI did not formally
report any of its shooting incidents to the OIG until after the FBI completed
its investigation.

      All firearms discharges, except those in connection with training or off
duty sports and hobbies, must be reported to the OIG. To ensure that
shooting incidents are properly reported to the OIG, on July 27, 2004, the
Assistant Inspector General of the Investigations Division sent a
memorandum to the ATF, the DEA, and the FBI reiterating the existing
reporting requirements in order to eliminate any confusion over the
requirement to report firearms discharges.

The Components’ Shooting Investigations

      Resolution 13 does not specify how shooting investigations should be
conducted, but requires that all investigations be objective, thorough, and
timely. Specifically, Resolution 13 states that investigations must:

       •   Avoid any appearance of conflicts of interest or impropriety,

       •   Present all the information necessary for analysis, and

       •   Be conducted expeditiously.

Resolution 13 also requires that an investigation be “appropriate for the
type of incident involved,” but authorizes the components to decide who will
conduct the investigation:

       The decision whether a shooting inquiry will be conducted by
       investigators assigned to the field office where the incident
       occurred or by investigators assigned to a component
       Headquarters Office of Inspection or other Headquarters
       element, will be made by designated component
       Headquarters Senior Management following consultation
       with field office Senior Management.

The components call the decision to have a field office conduct the
investigation “delegating the investigation.”

      Delegation of the shooting incident investigation. The criteria for
delegating shooting incident investigations vary by component. We found
that the ATF has the strictest limitation on delegating shooting incidents. It
requires that all intentional and unintentional firearms discharges by ATF
employees be investigated by inspectors from the Office of Inspections. In

U.S. Department of Justice
Office of the Inspector General
                                                                           24
Evaluation and Inspections Division
all 23 ATF cases in our review, ATF headquarters dispatched an Office of
Inspections team to conduct the shooting incident investigation.

        The DEA generally delegated shooting incidents that did not result in
“significant or life threatening injuries, deaths, or other significant
liabilities” to the SAC of the DEA field office to which the Special Agent was
assigned. We found that the DEA delegated 22 (59 percent) of its 37
shooting cases to the SAC for investigation. Of these 22 cases, 7 resulted in
injury or death and 15 did not (9 were intentional discharges and 6 were
unintentional discharges during enforcement operations).

       According to the FBI Manual of Investigative Operations and
Guidelines, the decision to delegate an investigation is not based on the
seriousness of the incident but rather “on the extent of the SAC or ASAC
participation in the planning and operational events of the incident.” Of the
39 FBI cases we reviewed, 16 (41 percent) were delegated to the SAC. In two
cases (5 percent), a team was dispatched from headquarters to investigate,
and in 21 cases (54 percent), headquarters assigned an IIP to oversee the
investigation. The FBI policy distinguishes investigations overseen by an IIP
from investigations delegated to the SAC; however, in 6 of the 21
investigations we reviewed, we found that the IIPs directed to investigate
were assigned to the same field offices as the Special Agents involved in the
shooting incident.

       The USMS Office of Internal Affairs (OIA) forms a team to conduct the
investigation of each shooting incident involving a Deputy Marshal. USMS
case files did not record whether investigators were dispatched from
headquarters, assigned from another district, or assigned from within the
local district office, but every investigator reported directly to the USMS OIA.

      Criminal investigations of shooting incidents. In reviewing 124
individual cases arising from 103 shooting incidents, we found that local
law enforcement agencies conducted the criminal investigations of most
ATF, DEA, and USMS shooting incidents, while the FBI conducted the
criminal investigations of all of its shooting incidents (Table 3).




U.S. Department of Justice
Office of the Inspector General
                                                                           25
Evaluation and Inspections Division
     Table 3: Criminal Investigations of ATF, DEA, FBI, and USMS
        Shooting Cases by Federal and Local Law Enforcement

                            Investigated by:
                 State/Local Component       Both                         Cases
    ATF              21             2          0                            23
    DEA              27            13          0                           40
   USMS              14             8          0                            22
    FBI              12            39         12                           39
                                                                           124
Source: OIG analysis of components’ shooting cases.

       The ATF, the DEA, and the USMS told us that they always requested
that state or local law enforcement agencies conduct the criminal
investigations and that they only conducted a criminal investigation
themselves if the state and local agencies declined the request. That was
reflected in our review of the case files. We found that state and local
agencies conducted the criminal investigations in 62 of the 85 shooting
cases involving LEOs of the ATF, the DEA, and the USMS. The components
conducted the criminal investigations in the remaining 23 cases after local
law enforcement declined to investigate.36

       The ATF, the DEA, and the USMS shooting incident investigators gave
several reasons for having state or local agencies conduct the criminal
investigations. First, because state and local agencies have no vested
interest in the outcome of an investigation, having them conduct the
criminal investigation of the LEOs’ actions avoids any appearance of a
conflict of interest. The ATF, DEA, and USMS investigators also told us
that, in their opinion, local authorities are better able to secure the scene,
preserve physical evidence, and interview witnesses. One ATF Shooting
Incident Investigator noted that local law enforcement authorities routinely
investigate firearms discharges in their jurisdictions. Local authorities are
also better able to address any investigative issues that arise away from the
scene of the incident or after the initial shooting response ends. This was
demonstrated in two of the cases we reviewed.

       •   A Deputy Marshal observed a man threatening two women and
           intervened. The man lunged at him and the Deputy fired at the
       36 We asked Shooting Incident Investigators from the ATF, the DEA, and the USMS

why these 23 shooting incidents were not investigated by state or local law enforcement as
required by their components’ policies. They explained that state or local law enforcement
authorities sometimes declined to investigate shooting incidents that did not involve injury
or death, or that occurred on federal property.

U.S. Department of Justice
Office of the Inspector General
                                                                                       26
Evaluation and Inspections Division
            man in self-defense, but did not know if he hit him. The man and
            the two women fled the scene. The man later sought treatment for
            his gunshot wound, and the hospital staff called the local police.
            When the police arrived at the hospital, the man complained to
            them that the Deputy Marshal had unfairly shot him.

       •    A DEA Special Agent was involved in a shooting incident, but
            thought he had missed the suspect. A week later, local law
            enforcement officers arrested the suspect and found a bullet
            wound in the suspect’s arm. The suspect attributed the wound to
            the earlier shooting incident.

        The states have the primary authority and responsibility to
investigate and prosecute assaults, homicides, or other felonies occurring in
their jurisdictions and, in fact, investigated the vast majority of firearms
discharges, including most of the 9,369 homicides committed with a firearm
in 2002.37 Allowing local authorities to carry out their duties may eliminate
the need for an extensive federal investigation. Relying on local authorities
to conduct criminal investigations also reduces the possibility that separate
local and criminal investigations will lead to conflicting conclusions.

      In contrast to the ATF, the DEA, and the USMS, the FBI always
conducted a criminal investigation on any shooting incident involving its
Special Agents. The FBI conducted criminal investigations on all 39 cases
we reviewed. However, we found that state or local agencies also conducted
an investigation in 12 of those 39 cases.38

      We asked the Deputy Assistant Director why the FBI conducted a
federal criminal investigation in every case, even if it duplicated a local
criminal investigation. He told us that for cases involving injury or death,
the FBI’s reporting agreement with the CRD requires that the FBI
investigate any potential violation of civil rights.39 He said that policy has
been extended, by practice, to every shooting incident. He also told us that
the FBI would not discourage any local investigation and would cooperate
with state or local investigators if they conducted an investigation, but that
they would not request an investigation by a local law enforcement agency
because the FBI had the resources to conduct investigations in all cases.

       37   FBI, Crime in the United States, Summary of Uniform Crime Reports, 2002.

       38 Local law enforcement officers may be present at the scene of a shooting incident

as part of the task force or ad hoc team assembled to conduct the operation or because
they were the first responders to the scene. We found indications that local authorities
were present in 29 of the 39 FBI cases we reviewed.

       39   Civil rights violations are federal offenses punishable under 18 U.S.C. § 242.

U.S. Department of Justice
Office of the Inspector General
                                                                                         27
Evaluation and Inspections Division
      The DEA has a similar requirement in its reporting agreement with
the CRD but takes a different approach to the criminal investigation of
shooting incidents. The DEA meets its requirement by asking local law
enforcement authorities to investigate the shooting and submitting the local
criminal investigations to the CRD.

      We discussed with CRD attorneys the fact that the DEA and the FBI
have similar agreements with the CRD but have different approaches to
conducting criminal investigations into shooting incidents. The CRD
attorneys said that they used the local criminal investigations of the DEA
shooting incidents to determine whether a civil rights violation had
occurred. The CRD attorneys also said that local authorities questioned the
objectivity of the FBI’s criminal investigations of shooting incidents involving
its Special Agents in at least one case. In that case, FBI headquarters
admonished the FBI SAC for turning over the scene of an FBI shooting
incident to local and state criminal investigators who insisted on conducting
a criminal investigation of the incident.

      The rights of the LEOs involved in shooting incidents. Both
Resolution 13 and the components’ policies direct that the investigation
balance the importance of conducting an objective, thorough, and timely
criminal investigation with protecting the rights of the LEOs for whom
shooting incidents are traumatic events. LEOs may exercise their
constitutional right to remain silent during the criminal investigation or can
make voluntary statements, with the advice of an attorney if they choose. In
101 of the 124 shooting cases we reviewed, the LEOs who fired their
weapons made voluntary statements, and in 30 of the 101 cases, an
attorney representing the LEO was present during the statement to advise
the LEO (Table 4).


          Table 4: Voluntary Statements With Attorneys Present

                              Cases With Attorney Present
 Component          Cases      Voluntary   at Voluntary                 Percentage
                              Statements    Statement
     ATF              23          21             6                            29
     DEA              40          40            11                            28
     FBI              39          25            5*                            20
    USMS              22          15             8                            53
    TOTAL            124         101            30                            30
Source: OIG analysis of components’ shooting cases.
* Three additional FBI Special Agents were represented by counsel, but their attorneys
were not present when the voluntary statements were given.


U.S. Department of Justice
Office of the Inspector General
                                                                                     28
Evaluation and Inspections Division
       Declinations of prosecution. After the criminal investigation is
complete, each component requires investigators to obtain a declination of
prosecution from state or federal prosecutors or otherwise ensure that there
is no criminal action pending before completing the administrative
investigation of a shooting incident. Because both state and federal
declinations of prosecution are recorded in the case files, we were able to
evaluate their use by the components. When they sought a declination, we
noted that only the FBI followed the practice of obtaining declinations from
both federal and state prosecutors (Table 5).


     Table 5: Declinations of Prosecution Obtained by Components

                                                                        Federal and
                                        Federal       State
      Component              Cases                                         State
                                      Declinations Declinations
                                                                        Declinations
          ATF                  23            1               18              0
          DEA                  40            9               21               4
          FBI                  39           23               22              21
         USMS                  22            2                   3            0
         TOTAL                124           35               64              25
Source: OIG analysis of components’ shooting cases.

       We also examined components’ compliance with their individual
policies regarding obtaining declinations of prosecution. The DEA and the
FBI reported to us that they do not routinely obtain declinations of
prosecution in cases that do not involve injury or death. However, we found
that the DEA and the FBI did not obtain a declination of prosecution in one
case involving death or injury each. The ATF and USMS are required by
their policies to obtain a declination of prosecution in every case. Yet, the
ATF did not obtain a declination of prosecution in 4 cases and the USMS did
not obtain a declination of prosecution in 17 cases (Table 6).


 Table 6: Cases in Which No Declination of Prosecution Was Obtained
                                    No                Death or             No
  Component          Cases
                                Declination            Injury        Death or Injury
       ATF             23            4                    0                 4
       DEA             40           14                    1                13
       FBI             39           15                    1                14
      USMS             22           17                    5                12


U.S. Department of Justice
Office of the Inspector General
                                                                                  29
Evaluation and Inspections Division
     TOTAL              124            50                 7                  43
Source: OIG analysis of components’ shooting cases.
        The ATF investigators acknowledged that they had not obtained the
required declinations in four cases due to an administrative oversight; these
four ATF cases involved shooting incidents in which the suspect was neither
injured nor killed. The DEA investigators said that a declination of
prosecution was not obtained in one case because it involved a minor
wound to a suspect who eluded arrest. The FBI could not explain why one
of its cases was not reported to the CRD for the required declination of
prosecution. The USMS told us that its policy of obtaining declinations of
prosecution in every case “needed to be more actively enforced.”

      Compelled statements in the administrative investigation. As noted
above, during criminal investigations, LEOs have a constitutional right
under the Fifth Amendment to remain silent. But once the criminal
investigation is complete, the government can compel LEOs to provide
statements for the administrative investigation and can discipline them if
they refuse to comply. If a government agency compels an employee to
provide a statement, it may use information in that statement to take
administrative action against the employee, but it may not use the
information against the individual in a criminal prosecution.40 In the 124
cases we reviewed, the components compelled 30 administrative statements
(Table 7).


      Table 7: Statements by LEOs Involved in Shooting Incidents

                                                            Both
                                                          Voluntary
                          Voluntary Compelled                                 No
Component Cases                                              and
                          Statement Statement                             Statement
                                                         Compelled
                                                         Statements
     ATF           23          21              2              0                0
     DEA           40          40              0              0                0
     FBI           39          25             14              1                1*
    USMS           22          15             14              7                0
   TOTAL          124         101             30               8                1
Source: OIG analysis of components’ shooting cases.
* One FBI Special Agent retired before the administrative investigation was completed.




      40 However, an employee who makes a false statement in the compelled interview

may be criminally prosecuted for the false statement.

U.S. Department of Justice
Office of the Inspector General
                                                                                     30
Evaluation and Inspections Division
      We discussed the practice of compelling statements with investigators
from each of the components. The ATF and DEA shooting incident
investigators we interviewed said that it is their components’ policy not to
compel statements unless they are needed to complete the administrative
investigation. The ATF shooting investigator said this was the ATF’s reason
for compelling statements in two ATF cases. The FBI Deputy Assistant
Director we interviewed confirmed that it is FBI practice to compel an
administrative statement in all administrative cases unless the LEO has
already made a voluntary statement in the criminal one. The FBI Deputy
Assistant Director also stated that the administrative warnings and criminal
immunity associated with compelled administrative statements were
necessary to protect the rights of the LEOs. The Deputy Marshal now
responsible for investigating shooting incidents told us that, in the past, the
USMS’s practice was to compel an administrative statement in every case,
but that the USMS discontinued the practice. Currently, USMS policy
authorizes compelled administrative statements only when necessary to
complete the administrative investigation.

      Our review of the case files also found that the components followed
substantially different practices for compelling administrative statements in
similar situations. In four FBI shooting cases, investigators compelled
administrative statements (without declinations of prosecution) from the
Special Agents involved in shooting incidents for use in the criminal cases
against the suspects involved in the shooting incidents. In similar DEA
shooting incidents, the DEA did not compel the Special Agents involved to
provide administrative statements to support the prosecution of the
suspects. Instead, the DEA consulted with the Assistant United States
Attorney, and the DEA Special Agents testified before the federal grand jury
considering the charges against the suspects.

      In the DEA and FBI cases, the suspects were charged under
18 U.S.C. § 115 with assaulting the Special Agents. Although the assaults
may be related to shooting incidents, both the FBI and the DEA policies
require that the charges of assaulting the LEOs must be investigated
separately, not as a part of the shooting incident administrative
investigation. The four FBI case files included no explanation for the
shooting incident investigators’ decision not to conduct a separate criminal
investigation and to rely instead on compelled administrative statements.

      Timeliness of shooting incident investigations. All of the components
have established timeliness standards for their shooting incident
investigations. We found that all components began their administrative
investigations while the criminal investigations were in progress, and all
components required that the criminal investigations be completed before
the administrative investigations were closed. The FBI requires that an


U.S. Department of Justice
Office of the Inspector General
                                                                          31
Evaluation and Inspections Division
administrative investigation be completed within two weeks of the incident,
and the ATF, the DEA, and the USMS require completion within 30 days.
All of the components allow for extensions of the time required to complete
the administrative investigation.
        During our review, we found that the components documented the
“completion” of administrative investigations differently. The ATF, the DEA,
and the USMS Inspections Divisions prepared formal memoranda to
document the completion of the administrative investigation and to forward
the case to the Review Board. We used the dates of those memoranda as
the dates that the investigations were completed. The FBI completed a
Form FD-263, Report of Administrative Investigation, but did not submit the
administrative investigation to the FBI Review Board at that time. We found
no documentation in the FBI’s files as to when the administrative
investigations were actually submitted to the FBI Review Board. The case
files we reviewed did not contain sufficient documentation for us to
determine when, or for what reasons, extensions were granted.

      We determined that the completion dates recorded on the FBI’s
Reports of Administrative Investigation could not have been the actual dates
that the FBI completed the administrative investigations. On the date these
forms were completed, most criminal investigations had not been completed
and the CRD declinations of prosecution had not been obtained, both of
which are required before an administrative investigation can be closed. We
examined the time taken by the FBI to obtain declinations of prosecution
from the CRD and found that it took the FBI an average of 117 days to
obtain the declinations required to close the criminal investigations.
Therefore, the completion dates recorded on the FBI’s Reports of
Administrative Investigation appeared to represent only the completion of
the on-site investigations.

      We compared the time required by all the components to obtain
declinations of prosecution to the time required to complete an
administrative investigation (Figure 11).




U.S. Department of Justice
Office of the Inspector General
                                                                       32
Evaluation and Inspections Division
             Figure 11: Comparison of Average Time to Obtain
          Declination of Prosecution to Average Time to Complete
                 and Submit Administrative Investigation

                                        68
      ATF                                         98


                                                                135
      DEA                                                                            184


                                                         117
      FBI             25


                                   59
    USMS                                                 118


            0               50                 100                150                 200

   Time to Complete and Submit Investigation   Time to Obtain Declination of Prosecution

Source: OIG analysis of components’ shooting incident data.
Note: The chart shows the time required by the ATF, the DEA, and the USMS to obtain
either a local or federal declination of prosecution and the time required by the FBI to
obtain a declination of prosecution from the CRD.

       As Figure 11 shows, the ATF, the DEA, and the USMS took longer to
close their investigations than they took to obtain declinations of
prosecution, which was the expected result. However, the FBI records
indicated that the FBI completed a Form FD-263, Report of Administrative
Investigation, in far less time than it took to obtain declinations of
prosecution. Specifically, it took the FBI an average of 117 days to obtain
the declination of prosecution required to close a criminal investigation, but
only 25 days, on average, to record the administrative investigation as
complete. Because our review of the FBI’s case files found no other
documentation that recorded the completion of the overall investigation, we
used the FBI’s average time to obtain declinations of prosecution as the
average time in which FBI administrative investigations were completed and
ready for Review Board consideration.

      Overall, we found that all of the components exceeded their
established time frames for completing administrative investigations. We
recognize that the amount of time taken to complete any particular
investigation may have been reasonable based on the complexity of the
incident, pending criminal charges, or other factors outside the control of


U.S. Department of Justice
Office of the Inspector General
                                                                                           33
Evaluation and Inspections Division
the components. However, the files we reviewed generally did not contain
sufficient documentation to enable us to conduct a detailed analysis of
these factors. Moreover, for the FBI’s cases, the files did not contain
sufficient documentation to enable us to accurately determine when the
administrative investigations were actually completed and ready for review.

The Components’ Review Boards

       Resolution 13 requires the Review Boards to “determine the
reasonableness of the application of deadly force in accordance with the
Department’s Deadly Force Policy and the law” based on the shooting
investigation and to provide senior management with analyses,
observations, and recommendations concerning operational training and
discipline. Resolution 13 also requires that Review Boards be independent
and objective, and their decisions and recommendations free of the control
or direction of component management.

      Although each of the components had established a Review Board to
consider shooting incident investigations, we found significant differences
among the Boards, including the composition of the Boards, the length of
time the Boards took to complete the review process, the decisions made
and the process used to reach them, the extent to which decisions were
documented, and whether and how the Boards referred cases for discipline.

       The composition of Review Boards. Resolution 13 requires that “the
investigation and review process must be overseen to ensure that ...
potential conflicts of interest are avoided, including even the appearance of
conflict of interest or impropriety.” The composition of the components’
Review Boards varied significantly, including differences in the number of
Board members, the grade level and position of the members, and whether
members from outside the component were included.41 Specifically:

       •     The seven-person ATF Review Board included five senior ATF
             managers and two senior managers from other law enforcement
             components of the Department.42

       •     The DEA Review Board consisted of three of the highest-ranking
             officials in the agency – the Chief Inspector, Inspections Division
             (the Chairperson); the Chief of Operations (Vice-Chairperson); and
             the SAC of the Office of Training.

       41   Resolution 13 does not require outside membership on the Review Board.

      42 The ATF began including outside representatives while it was part of the

Department of the Treasury and continued this practice after transferring to the
Department.

U.S. Department of Justice
Office of the Inspector General
                                                                                     34
Evaluation and Inspections Division
       •   The composition of the FBI’s Review Board varied. During the
           period of our review it included 14 members representing various
           divisions and positions within the FBI (e.g., Criminal Investigative
           Division, National Security Division, Training Division) as well as
           one Department attorney from the CRD.

       •   The USMS Review Board had seven members, each an LEO with at
           least four years of law enforcement experience. Five of the
           members were senior management staff, one was a USMS
           Instructor from FLETC, and one was a nonsupervisory Deputy
           Marshal. The USMS Board also included an advisory
           representative from the USMS Office of the General Counsel. The
           USMS placed restrictions on members that other components did
           not, including:

           o Prohibiting membership to anyone disciplined for an incident
             involving the use of a weapon or under investigation for a
             disciplinary matter; and

           o Prohibiting any Review Board member who investigated a
             shooting incident from participating in the final decision.

      In examining the composition of the components’ Review Boards, we
were told by Board members that including outside members could improve
the independence and objectivity of Review Boards. Two former ATF Review
Board members, one from the Department of the Treasury and one from the
Department of Justice, believed that including representatives from peer
organizations helped ensure the independence and objectivity of the Boards
in which they participated.

       We also concluded that the composition of the DEA’s Review Board
might not be consistent with the Resolution 13 requirement for an
independent review. The DEA’s Review Board is composed of three of the
highest-ranking individuals in the agency’s management structure. Their
only supervisors are the DEA Administrator and Deputy Administrator.
Because the members of the Review Board are at the highest levels of DEA
management, their decisions are not only subject to the control or direction
of component management, but may, in fact, be the decisions of the
component’s management. Although the DEA Administrator and Deputy
Administrator can provide some independent oversight, limiting Review
Board membership only to individuals who bear significant responsibility for
the operations being reviewed can create an inherent conflict with the need
for the Board to independently examine and potentially criticize those
operations. In response to our observation, DEA Review Board members

U.S. Department of Justice
Office of the Inspector General
                                                                            35
Evaluation and Inspections Division
asserted that the more extensive training and experience of their Review
Board outweighed any theoretical reduction in the Review Board’s
independence.

      Timeliness of reviews by Review Boards. Resolution 13 states that
prompt reporting, investigation, and review of shooting incidents are
important, although it does not establish time standards for Review Boards’
consideration of cases. To evaluate the timeliness of reviews, we examined
the average time it took for each component’s Board to meet after the
completion of the investigation. The average time for Boards to meet to
consider completed investigations ranged from 39 days at the ATF to 226
days at the DEA (Figure 12).

              Figure 12: Average Number of Days to Convene the
              Review Board After Completing the Administrative
                                Investigation


                          39
        ATF



       DEA                                                                  226



        FBI                                 98


                                                 117
     USMS


              0          50           100           150         200          250
                                            Days
Source: OIG analysis of components’ shooting incident data.

      In examining the reasons for the differences in the time that the
components’ Review Boards took to convene after investigations were
completed, we found that the ATF required its Review Board to meet within
a specified time (60 days after the completion of a shooting incident
investigation). The other components did not require their Boards to meet
within a specified time. During our review, the USMS Board decided to
begin meeting on a quarterly basis beginning on March 1, 2004.43 DEA
Inspections Division staff told us that the lengthy delays in convening the
       43 Prior to our review, the USMS Review Board met only when the Chairperson

believed there were a sufficient number of cases to review.

U.S. Department of Justice
Office of the Inspector General
                                                                                     36
Evaluation and Inspections Division
DEA Review Board were due to difficulties in coordinating the full schedules
of its three high-ranking members.

      Lengthy review delays had two negative effects. First,
recommendations to senior management regarding operational, training,
and safety issues were delayed, which hindered management’s ability to
make prompt corrections. Second, lengthy delays increased the time that
employees remained under investigation. For example, the USMS Chief
Inspector told us that the delays had a negative effect on the careers of
Deputy Marshals involved in shooting incidents, even those ultimately
cleared of any misconduct, because their promotions and transfers were
delayed until the reviews were complete.

       During our examination of Review Board actions, we also found one
DEA incident that was never considered by the DEA Review Board. During
a multijurisdictional operation, two LEOs (a DEA Special Agent and a local
detective) fatally shot two suspects because, according to the LEOs, they
believed that the suspects were accelerating toward them in a car. However,
evidence from the scene conflicted with the LEOs’ account. The car was in
reverse, had backed up against another vehicle, and could not have been
accelerating toward the LEOs. The DEA OPR and the CRD investigated this
case extensively, and the DEA Administrator directed a special review of the
tactics used in this and similar cases. The DEA OPR investigation cleared
the DEA Special Agent of misconduct, but the case was never forwarded to
the DEA Review Board for consideration as a shooting incident.

      Components’ Review Boards apply the standard for the reasonable
use of deadly force differently. Resolution 13 requires components’ Review
Boards to determine whether the application of deadly force was
reasonable.44 Of the 121 shooting incidents that were considered by Review
Boards, 14 were determined to be unreasonable uses of force (Table 8).45



       44 The Review Boards applied the standard for reasonableness in the use of deadly
force established in the Department’s Resolution 14, approved by the Attorney General on
October 17, 1995, which states that an LEO “may use deadly force only when necessary,
that is, when the officer has a reasonable belief that the subject of such force poses an
imminent danger of death or serious physical injury to the officer or to another person.”
The Department issued a revised deadly force policy on July 1, 2004, but did not change
the standard for the use of deadly force.

       45 Resolution 13 is specific in requiring Review Boards to decide whether a use of

force was reasonable, but none of the Review Boards used that terminology. The ATF, the
DEA, and the FBI Review Boards used “justified” and “not justified” to describe their
determinations. The USMS Review Board used “authorized” and “not authorized.” For
consistency, we use the terms “reasonable” and “unreasonable” to describe Review Board
determinations.

U.S. Department of Justice
Office of the Inspector General
                                                                                     37
Evaluation and Inspections Division
Of those 14 determinations, 11 were made in cases in which the discharge
was unintentional. In only three cases, all relating to USMS Deputy
Marshals, did a Review Board find that an intentional discharge was
unreasonable.


                     Table 8: Review Board Decisions

     Component              Unreasonable           Reasonable   Total
        ATF                      0                     23        23
        DEA                      7                     30        37
        FBI                      4                     35        39
       USMS                      3                     19        22
       TOTAL                          14                  107   121
Source: OIG analysis of components’ shooting incidents.

      We found that when considering whether the actions of LEOs were
reasonable, the ATF, the DEA, and the FBI Review Boards focused on the
moment the LEOs decided to discharge their firearms. In contrast, the
USMS Review Board took into account the total circumstances preceding
the incident. These different approaches can lead to different conclusions
about similar sets of facts. For example, the ATF, the DEA, and the FBI
approach would find “reasonable” the actions of an LEO who failed to
properly identify a suspect and consequently shot an innocent civilian if, at
the moment the LEO fired, he or she believed that the civilian was the
suspect and was acting in a way that the LEO believed was threatening.
The USMS’s approach could find the same actions to be “unreasonable”
because the LEO had not taken steps to properly identify the individual.
Although no incidents are exactly alike, several incidents we reviewed
demonstrated that the components were applying the standard for the use
of deadly force differently. In each incident, although we found no evidence
that the findings we reviewed were inconsistent with the review procedure
established by each component, the Review Boards reached different
conclusions on the reasonableness of LEOs’ actions. For example:




U.S. Department of Justice
Office of the Inspector General
                                                                         38
Evaluation and Inspections Division
                           Incidents Involving Fleeing Suspects

    A Deputy Marshal shot and                  A FBI Special Agent shot and
wounded a civilian mistakenly              wounded a civilian mistakenly
identified as a suspect. The civilian      identified as a suspect. The civilian
was in a vehicle that matched the          was in a vehicle that matched the
description provided by an informant       description provided by an informant
and arrived at the location and time       and arrived at the location and time
that the informant had arranged.           that the informant had arranged. The
The Deputy Marshal and local police        Special Agent believed that the person
on the scene believed that the person      was the suspect, and other Special
was the suspect. The Deputy                Agents at the scene were
Marshal stated that, as the vehicle        communicating over the radio that they
door opened, he saw the individual         shared a similar belief. The Special
reach across the steering wheel with       Agent stated that, upon approaching
a gun, and he fired because he             the vehicle, he believed that he saw the
perceived an imminent threat to his        individual reaching into his waistband
safety. The Deputy Marshal did not         for a weapon, and he fired his weapon
properly identify the individual in the    because he perceived an imminent
vehicle and rushed the vehicle rather      threat to his safety. Although the
than wait for assistance. The USMS         administrative investigation stated that
Review Board determined that the           no exigency was identified justifying
Deputy Marshal did not have a              the rush to physically extract the
reasonable belief that the individual      occupants, the FBI Review Board
posed an imminent danger of death          determined that the Special Agent’s
or serious physical injury.                use of deadly force was reasonable.

                           Incidents of Mistaken Identity

         Documentation of findings and recommendations. Resolution 13
  requires Review Boards to provide component management with their
  “analyses, observations, and recommendations concerning operational,
  training, and other relevant issues.” All of the Review Boards prepared
  memoranda for senior management summarizing their findings on each
  case. In almost all of the cases that we reviewed, the memoranda prepared
  by the FBI and the USMS Review Boards were thorough and provided useful

       A Deputy Marshal fired into a          A DEA Special Agent fired into
   fleeing fugitive’s car as the           a pickup truck driving away from
   fugitive drove away from the            him after shots were fired in the
   Deputy Marshal after a failed           general direction of DEA Special
   arrest attempt. The Review              Agents during a surveillance
   Board found that the Deputy             operation. The Review Board
   Marshal’s use of deadly force was       found that the use of deadly force
   unreasonable, and the Deputy            was reasonable, and no discipline
   Marshal was suspended for five          was imposed.
   days.


  U.S. Department of Justice
  Office of the Inspector General
                                                                                39
  Evaluation and Inspections Division
recommendations. For instance:

       •    FBI Board memoranda for some cases noted that Special Agents
            did not wear body armor, created dangerous one-on-one arrest
            scenarios, had not attended deadly force instruction training
            sessions, had not qualified with Bureau-issued weapons, placed a
            loaded firearm near a handcuffed prisoner, did not display clear
            law enforcement identifiers, or did not use shields.

       •    In November 2002, the USMS Board observed that personnel
            frequently attempted to arrest fugitives while the fugitives were in
            their vehicles. Attempts to block the vehicles were often
            unsuccessful and could lead to the discharge of firearms. The
            Review Board recommended that the USMS conduct research to
            identify devices that could be used to immobilize vehicles,
            preventing the fugitive from fleeing and possibly preventing serious
            injury to law enforcement personnel and others.

     In contrast, the ATF Review Board’s memoranda provided a written
summary of the shooting incident and Review Board discussion, but almost
no analysis of the incident and few training recommendations for senior
management. Two of the 13 ATF Review Board memoranda included
recommendations for training improvements.46

       The DEA Review Board memoranda contained standard language
describing their findings that the facts and circumstances were accurately
and completely reported in the investigation, that the employee was acting
within the scope of employment and authority, that the action taken by the
employee was in compliance with component policies and procedures, that
there was no evidence of employee misconduct or malfeasance, that the use
of force was justified, and that the use of force did or did not violate the law.
The DEA required Board members to complete and sign a two-page
worksheet indicating that their case review covered all the above factors.
We found that 32 of 37 memoranda consisted only of the standard language
contained in the worksheet and a brief summary of the incident.

     Referral of cases for discipline. Resolution 13 requires Review Boards
to make “appropriate, timely recommendations to senior management …

       46 ATF Order 0 8200.3 in effect from April 22, 1996, until November 3, 2000, and
superseding ATF Order 0 8200.3A, which took effect on November 3, 2000, and is still in
effect requires that the Review Board’s report include findings “relative to the following
issues: use of force, compliance with [ATF] policies and directives, and determinations of
wrongful or inappropriate actions of those involved in the shooting incident. The [Review
Board] will also make recommendations relative to needed changes to policy, directives,
equipment, training, supervision, and safety issues identified in the [report].”

U.S. Department of Justice
Office of the Inspector General
                                                                                       40
Evaluation and Inspections Division
including, if necessary, referral to appropriate entities for disciplinary
review.” The ATF Review Board did not refer any of the cases that we
reviewed for discipline because it did not find any shooting cases
unreasonable. The DEA Board referred eight cases, the FBI Board referred
four cases, and the USMS referred three cases (Table 9).




                Table 9: Review Board Discipline Referrals

   Component                    Reason for Review Board Referral

       ATF           •    No referrals.
                     •    Firing into a vehicle containing a passenger and in
                          the proximity of law enforcement.
                     •    Change in statement regarding the shooting
       DEA
                     •    Use of an unauthorized weapon.
                     •    Five unintentional discharges during enforcement
                          operations.
                     •    Four unintentional discharges during enforcement
        FBI
                          operations.
                     •    Firing at a vehicle’s tires.
                     •    Shooting the wrong suspect. No reasonable belief
      USMS                of imminent danger.
                     •    Firing at a vehicle that was driving away. No
                          reasonable belief of imminent danger.
      Total
                     15
    Referrals:
Source: OIG analysis of components’ shooting incidents.

       The referral for discipline was not always clearly stated in the
memorandum of the Review Board’s finding. For example, a Deputy
Marshal fired one round at a suspect’s car to disable it and, when this
failed, fired again at the driver. The Review Board found that the round
intended to disable the vehicle was unauthorized, but that the rounds fired
at the driver were authorized. The Chairman of the Board summarized
these findings in a memorandum to the Deputy Director dated June 18,
2003. In a letter dated August 12, 2003, the Chairman of the Board
informed the Deputy Marshal that the Review Board recommended that he
“review the USMS shooting policy … and undergo 16 hours of remedial
[firearms] training.” It was unclear from the files we reviewed whether the

U.S. Department of Justice
Office of the Inspector General
                                                                            41
Evaluation and Inspections Division
case was referred for discipline, and the Deputy Marshal’s personnel record
did not contain any disciplinary action.

      When a case is referred for discipline, the components follow their
disciplinary adjudication processes. For the 15 cases in which the Review
Boards made a referral for discipline, the components took the following
actions:
      • DEA. The DEA imposed no discipline in any of the eight referred
          cases. The DEA cleared three of the Special Agents and issued
          Letters of Caution to the other five Special Agents.47

       •    FBI. The FBI followed the Board’s recommendation and
            suspended two Special Agents for three days without pay, but
            increased the suspensions it imposed on the two other Special
            Agents from the recommended three days to five days.48

       •    USMS. The USMS imposed discipline in two of the three cases. In
            the first, a Deputy Marshal was demoted and suspended without
            pay for 30 days. The individual resigned before the penalty was
            imposed. The second Deputy Marshal was suspended for five days
            without pay. The USMS was the only component to impose
            discipline on an employee for using deadly force against an
            innocent person or under other unreasonable circumstances.

      We also found that the process by which cases were referred for
discipline affected the actual discipline imposed by the components. For
example, because of its policy of recommending a minimum 3-day
suspension for all unintentional discharges, the FBI Review Board
recommended a 3-day suspension (increased to a 5-day suspension by the
deciding official) for a Special Agent who unintentionally discharged one
round into a dying suspect. The other components’ Review Boards are not
required to recommend a minimum disciplinary action. Consequently, in a
similar case in which a DEA Special Agent unintentionally discharged her
firearm into a suspect and another DEA Special Agent, wounding both, the
Review Board referred the shooting incident to the Board of Professional


       47A Letter of Caution is not a formal disciplinary action and does not become part of
the employee’s personnel record.

       48 The FBI Review Board recommendations were based on guidance outlined in an
August 27, 1997, memorandum to all SACs, “Accidental Discharges of Weapons,” in which
the Director stated that accidental discharges of a firearm as a result of disregarding
established safety procedures would result in a minimum penalty of a 3-calendar-day
suspension, absent definitive mitigation. The FBI Review Board recommended 3-day
suspensions for unintentional discharges, regardless of whether the discharge occurred at
the range, in the office, or during enforcement operations.

U.S. Department of Justice
Office of the Inspector General
                                                                                      42
Evaluation and Inspections Division
Conduct without a specific recommendation and the Special Agent received
a Letter of Caution.

       Overall timeliness. Under Resolution 13, Review Boards are supposed
to provide a check and balance on the reporting and investigative process
and ensure that the process is completed expeditiously. We reviewed the
files on 100 incidents to determine how long the shooting review process
took. We used the date of the shooting incident as the start date and the
date that a signed letter was sent to the subject LEO with the Review
Board’s decision as the date the review was closed. We found that the ATF
and the FBI took the least amount of time on average to complete their
reviews, while the DEA took the longest (Figure 13).


          Figure 13: Average Number of Days to Close Shooting
                            Review Process



         ATF                          176


                                                                 440
         DEA


                                        184
          FBI


                                                     262
       USMS


                0        100          200            300   400     500
                                              Days

Source: OIG analysis of components’ shooting incidents.

       Conclusion. We concluded that the components’ differences in
implementation of the Review Board process could lead to inconsistent
determinations and different disciplinary actions for similar shooting
incidents. That outcome undermines Resolution 13’s objective of
“appropriate, consistent operational guidelines for the criminal investigative
agencies of the Department.” Although the weaknesses we identified need
to be corrected to ensure the effectiveness of the Review Board process, each
component’s system had strengths that the other Review Boards could
consider as benchmarks for improvement and that the Department could
use to improve the shooting review process overall.


U.S. Department of Justice
Office of the Inspector General
                                                                         43
Evaluation and Inspections Division
      The most significant strength we noted was the inclusion of LEOs
from other components as members of the Review Boards. Including
representatives from peer organizations broadens the knowledge and
experience applied to any shooting incident review and can help to ensure
the independence and objectivity of the Review Boards.


       The most significant weakness we noted was the components’ failure
to uniformly apply the standard for determining the reasonableness of the
use of deadly force. The ATF, the DEA, and the FBI looked at the
“reasonableness” of the LEO’s belief that the suspect posed an imminent
threat at the moment deadly force was used. The USMS Review Board
considered the reasonableness of the Deputy Marshal’s actions as a whole,
including the actions that created the necessity for deadly force. A main
purpose for reviewing shooting incidents is to ensure that LEOs use deadly
force only when necessary to protect themselves and the public. Based on
Resolution 13, we believe that Review Boards should uniformly apply the
Departmentwide standard to determine the reasonableness of the use of
deadly force.

      We also concluded that uniform requirements are needed to ensure
that Review Boards meet regularly to consider shooting incident
investigations promptly, that they fully document their decisions, and that
they provide the expected recommendations for improving training and
operational procedures.

Sharing of Lessons Learned

      Resolution 13 requires that “operational, safety, training or other
relevant issues disclosed during the investigative or review process should
be promptly communicated to component employees, and must be
incorporated in policy manuals and training curriculae, as appropriate.”
Resolution 13 also requires that components conduct meaningful shooting
data and trend analyses.

      During site visits and interviews, we asked senior component officials
how they communicate operational, safety, and training issues to LEOs. We
found that the ATF prepared semiannual summaries of its shooting
incidents that it made available to all employees on the ATF intranet. The
DEA prepared annual summaries of its shooting incidents that were
available to employees on the DEA intranet. We found that the FBI had not
prepared summaries of its shooting incidents but began to prepare them
during the course of our review, an effort that was ongoing when we
completed our fieldwork. The USMS did not prepare any shooting incident
summaries before we began our review. In March 2004, the USMS Review

U.S. Department of Justice
Office of the Inspector General
                                                                        44
Evaluation and Inspections Division
Board suggested to the Director that the USMS prepare shooting incident
summaries, stating:

       We further suggest, in the same spirit of making
       information available to the Service that at the end of
       each Board session, a summary of all cases could be
       created, removing any specific individual names or
       districts. These could then be emailed or otherwise sent
       to all USMS operational personnel advising them of the
       facts and findings of each of the cases by the Training
       Academy representative. This summary could be used for
       educational, training and compliance purposes.

The USMS liaison told us that the USMS is implementing the Review
Board’s recommendation.

       Incorporation of shooting incidents in training curricula. Although all
of the components’ training directors and supervisory firearms instructors
we interviewed said that their headquarters would notify them of any safety
issues disclosed during the investigative or review process and that they
would promptly incorporate safety issues in policy manuals and training
curricula, we found that only the DEA sent shooting incident files from its
Review Board directly to its training academy for operational and training
analysis. After completing the analysis, the DEA incorporated its findings
directly into the training curriculum for new Special Agents. In contrast:

       •   The ATF training staff at FLETC did not receive the shooting
           incident files for review and, during our interview, was unaware
           that shooting incident summaries were available on the ATF’s
           intranet;

       •   The FBI training academy only retained preliminary reports of
           shooting incidents; and

       •   The USMS supervisory firearms instructor at FLETC, who was a
           member of the Review Board, was prohibited from discussing
           shooting incident reviews with anyone not a member of the Review
           Board.

      Consequently, the ATF, the FBI, and the USMS did not incorporate
lessons learned from shooting incidents in their training curricula.
According to one USMS trainer, the lack of a mechanism to incorporate
lessons learned from shooting incidents into the training provided at the
Academy meant that Deputy Marshals must rely on “word of mouth” for
lessons learned from shooting incidents and that important details may be

U.S. Department of Justice
Office of the Inspector General
                                                                           45
Evaluation and Inspections Division
lost or inaccurately conveyed. Resolution 13 requires components to use
statistical techniques to describe, summarize, and compare shooting
incident data and to identify patterns and changes that have occurred over
time in order to minimize risks to LEOs and public safety. However, the
Resolution does not specifically require components to share information
with one another, and we found no evidence that the components shared
shooting incident data among themselves.

      We believe that components could benefit from a review of other
components’ shooting incidents. Only a small number of shooting incidents
occurred in each component yearly. During the period we reviewed, the
annual number of shooting cases involving the use of deadly force never
exceeded 16 in any component. However, across the Department, the
number of shooting incidents was higher. Aggregating the data on all the
Department’s shooting incidents would provide enough data to allow the
components to use statistical techniques to describe, summarize, and
compare shooting incident data and to identify long-term patterns and
changes that have occurred over time.

       Sharing information among components could enable them to identify
significant trends earlier. For instance, we compiled the shooting incident
data reported for all components over the last four years and found that
more than half involved vehicles (Table 10).


                Table 10: Shooting Cases Involving Vehicles

                                              Involved
                            Total
     Component                               Suspect in     Percentage
                            Cases
                                               Vehicle
          ATF                 23                 9             39%
          DEA                 40                  25           63%
          FBI                 39                  20           51%
         USMS                 22                  15           68%
        TOTAL                 124                 69           56%
  Source: OIG analysis of components’ shooting incidents.

      Because they did not share data with each other, the components
learned each lesson independently. For example, in November 2002 the
USMS Review Board observed that Deputy Marshals were frequently
involved in shooting incidents while trying to arrest fugitives in stopped
vehicles and recommended that the USMS research “devices that could be
used to immobilize vehicles.” During the same time, the DEA identified


U.S. Department of Justice
Office of the Inspector General
                                                                         46
Evaluation and Inspections Division
vehicles as a principal factor in shooting incidents and conducted research
on vehicle containment. Had the components shared lessons learned, the
DEA could have informed the USMS that its research on vehicle
containment concluded “that tire spike strips and an intentional puncture
of the subject vehicle’s tire(s) for the purpose of preventing a subject from
fleeing proved ineffective and unreliable.”49 The DEA could also have shared
the “active vehicle containment technique” that the DEA developed in
response to shooting incidents to make it more difficult for suspects to use
their vehicles as weapons against LEOs. We found there was no
Departmentwide system to disseminate information on shooting incidents.
Sharing information on shooting incidents among the components as soon
as they are reported would allow the components to improve their
operational planning and tactics immediately and avoid mistakes made by
other components. All the individual LEOs we interviewed told us that
knowing about shooting incidents involving other LEOs could improve the
planning of enforcement operations.

CONCLUSIONS

      We noted several areas in the components’ shooting review processes
that differed significantly. We believe that the results of our review should
be examined carefully by the components to identify areas that could be
improved and to ensure that shooting incidents are reported promptly,
investigated thoroughly, and reviewed by an objective and independent
Review Board.

      All of the components require a written report within one day so that
senior management can make investigative decisions, but, on average, only
the ATF and the FBI consistently met the requirement. Further, the FBI
and the DEA are required to report shooting incidents involving injury and
death to the CRD, and all the components are required to report shooting
incidents to the OIG, but neither the CRD nor the OIG were informed of all
reportable incidents.

       Three of the components – the ATF, the DEA, and the USMS – rely on
local law enforcement to conduct the criminal investigations of shooting
incidents, but the FBI conducts all its own criminal investigations.
Investigators assigned by the components’ headquarters conducted the
administrative investigation of every ATF and USMS shooting incident, but
the DEA and the FBI delegated the administrative investigation of some
shooting incidents to the field office to which the LEO involved was
assigned.

       49 DEA Deputy Administrator Memorandum, “Vehicle Containment and Vehicle-

Involved Arrest Procedures,” dated August 22, 2002.

U.S. Department of Justice
Office of the Inspector General
                                                                              47
Evaluation and Inspections Division
       While each of the components’ Review Boards prepares a
memorandum for every shooting incident reviewed, we found that only those
prepared by the FBI and USMS Review Boards consistently included
analysis and recommendations specific to the incident being reviewed. We
also found that each component has different Review Board membership
requirements, ranging from only senior-level managers to outside law
enforcement to nonsupervisory personnel. Outside representation on
Review Boards can improve objectivity and independence, and reduce
inconsistencies among the components. The ATF approach of including
experienced LEOs from peer law enforcement agencies appeared to enhance
the independence and objectivity of its Review Board.

       The most important difference in the components’ review of shooting
incidents was the lack of uniform application of the standard for
determining the reasonableness of the use of deadly force. The ATF, the
DEA, and the FBI Review Boards looked at the reasonableness of the LEO’s
belief that the suspect posed an imminent threat at the moment deadly
force was used. The USMS Review Board considered the reasonableness of
a Deputy Marshal’s actions as a whole, including the actions that created
the necessity for deadly force. As a result, Review Boards made different
decisions regarding the reasonableness of the use of deadly force for similar
shooting incidents. We believe that Review Boards should apply a uniform
Departmentwide standard for determining the reasonableness of the use of
deadly force.

       Overall, we found that the components varied substantially in the
time they took to complete the administrative investigation of shooting
incidents. The ATF averaged 176 days; the DEA, 440; the FBI, 184; and the
USMS, 262. Much of this difference appeared to be due to the time it took
for each component’s Review Board to meet after the completion of the
investigations. The average times ranged from 39 days at the ATF to 226
days at the DEA. Only the ATF required its Review Board to meet within a
specified time period (60 days after the completion of a shooting incident
investigation). The other components did not require their Boards to meet
within a specified time.

       Although the areas we identified need to be corrected to ensure the
effectiveness of the shooting review process, each component’s system had
strengths that the other components and the Department could use as
benchmarks to improve the shooting review process. Moreover, better
sharing and analysis of information on shooting incidents could identify
improvements to operational procedures and training.




U.S. Department of Justice
Office of the Inspector General
                                                                         48
Evaluation and Inspections Division
RECOMMENDATIONS

      To better ensure timely, thorough, and objective reporting,
investigation, and review of shooting incidents, we recommend that
the Department:

1. Establish a working group to consider uniform Department
standards for the components’ shooting incident reviews. The
standards should include requirements regarding:

          A. Content and timeliness of preliminary shooting incident
             reports and investigations.

          B. Delegation of investigative responsibility, involvement of
             local authorities in criminal investigations of shooting
             incidents, and requirements for declination of
             prosecution.

          C. Composition of the Review Boards, application of the
             standard for determining the reasonableness of deadly
             force, and documentation of Review Board decisions.

          D. Aggregation within the Department of shooting incident
             data and lessons learned, including the preparation and
             distribution of shooting incident summaries.

       With regard to specific component practices, we recommend that the
components take the following actions to correct the specific weaknesses
identified in this report.

2. ATF Recommendations – We recommend that the ATF:

          A. Establish a formal reporting relationship with the CRD.

          B. Improve the documentation of Review Board findings and
             recommendations.

3. DEA Recommendations – We recommend that the DEA:

          E. Improve the consistency and timeliness of shooting
             incident reports.

          F. Ensure compliance with its CRD reporting agreements.

          G. Consider changing the composition of its Review Board and

U.S. Department of Justice
Office of the Inspector General
                                                                          49
Evaluation and Inspections Division
              including outside members on its Review Board.

          H. Improve documentation of Review Board findings and
             recommendations.

          E. Improve the timeliness of review of shooting incidents.

4. FBI Recommendations – We recommend that the FBI:

          A. Ensure compliance with its CRD reporting agreements.

          B. Establish specific criteria for when to delegate shooting incident
             investigations to field offices.

          C. Consider requesting local criminal investigation of shooting
             incidents and avoid duplication of local criminal investigations.

5. USMS Recommendations – We recommend that the USMS:

          A. Streamline its shooting incident reporting system to improve
             consistency and timeliness in reporting shooting incidents.

          B. Establish a formal reporting relationship with the CRD.

          C. Consider including outside members on its Review Board.




U.S. Department of Justice
Office of the Inspector General
                                                                          50
Evaluation and Inspections Division
                      APPENDIX I: RESOLUTION 13


                                             U. S. Department of Justice
                                 Office of Investigative Agency Policies
                                                  Washington. D.C. 20530
September 20, 1995

MEMORANDUM FOR THE ATTORNEY GENERAL

THROUGH:                    THE DEPUTY ATTORNEY GENERAL

FROM:                       LOUIS J. FREEH
                            DIRECTOR, INVESTIGATIVE AGENCY POLICIES

SUBJECT:                    Resolutions 12 and 13

PURPOSE:                    To obtain approval for implementation of
                            Resolutions 12 and 13, which are attached

TIMETABLE:                  Immediate

DISCUSSION:         Resolution 12 addresses Department of
Justice critical incident response. Resolution 13 creates
policy regarding Department of Justice shooting incident
reviews. These Resolutions represent consensus recommendations
of the Executive Advisory Board of the Office of Investigative
Agency policies. No party to these Resolutions has advised
that it wishes to appeal either of them.

RECOMMENDATION:             Approval.

APPROVE              ____________________        Concurring component:
                     September 21, 1995
                                                           OLC
DISAPPROVE           ____________________


OTHER                ____________________




U.S. Department of Justice
Office of the Inspector General
                                                                    51
Evaluation and Inspections Division
U.S. Department of Justice
Office of Investigative Agency Policies
Washington. D.C. 20530

                                      RESOLUTION 13

     Pursuant to the Attorney General’s Order Number 1814-93,
dated November 18, 1993, and in my capacity as Director of
Investigative Agency Policies, I hereby issue the following
resolution concerning the conduct of post-shooting incident
reviews.

                                       Background

     The Attorney General requested that the Office of
Investigative Agency Policies (“OIAP”) consider the means by
which Department of Justice (“DOJ”) investigative agencies
conduct post- shooting incident reviews. I referred this
matter to the Firearms and Ammunition Working Group (“FAWG”).50
Resolution is the product of the FAWG’s efforts and has been
approved by the OIAP Executive Advisory Board (“EAB”).

                                       Discussion

   According to the terms of the Order creating the OIAP, I
have been authorized, “in the areas of overlapping jurisdiction
of the criminal investigative agencies,” to:

       (1) Take all steps necessary to improve coordination
       among the criminal investigative agencies of the
       Department [of Justice], both within the United
       States and abroad; (2) Assure, to the extent
       appropriate, consistent operational guidelines for
       the criminal investigative agencies of the
       Department [of Justice]; (9) Provide advice to the
       Attorney General and the Deputy Attorney General on
       all investigative policies, procedures and
       activities that warrant uniform treatment or
       coordination among the criminal investigative
       agencies of the Department; [and] ...(11) Perform
       such other functions as may be necessary for the
       effective policy-level coordination of criminal
       investigations by the criminal investigative

      50 The FAWG was created on September 14, 1994, pursuant to

OIAP Resolution 8.

U.S. Department of Justice
Office of the Inspector General
                                                                   52
Evaluation and Inspections Division
       agencies of the Department [of Justice],
       particularly with respect to drug trafficking,
       fugitive apprehension, violence, and related areas,
       and for the elimination of waste and duplication in
       these functions...

       Order Number 1814-93, Section (b).

     Attached to this Resolution as Exhibit A is the proposed
policy and accompanying commentary concerning the conduct of
post-shooting incident reviews. I believe that this policy and
commentary set forth appropriate general guidance to the
agencies. Furthermore, that general guidance is balanced with
appropriate deference to the specific needs of the agencies.

     This Resolution does not create or confer any right or
benefit on any person, public or private. Nothing in it, its
attachments, or associated documents is intended to restrict
authority as provided by law, statute, or regulation.

                                      Conclusion

     As I noted above, this Resolution has been approved by
the EAB. Further, I have been advised that no OIAP member
agency will appeal this Resolution.




     ___________________________
Dated: September 20, 1995                          LOUIS J. FREEH
       Washington, D.C.                       Director of Investigative
                                                   Agency Policies




U.S. Department of Justice
Office of the Inspector General
                                                                     53
Evaluation and Inspections Division
                               Policy Statement
                on Reporting and Review of Shooting Incidents

     1. Reporting Requirement. Every shooting incident by a
Department of Justice (“DOJ”) employee must be reported,
documented, and investigated. An exception to this requirement
would be weapons harmlessly discharged in a training or
recreational environment. Questions regarding the need to
report the discharge of a weapon should be resolved by
contacting a designated component Headquarters Senior Manager
for guidance.
     2. Shooting Inquiry. The circumstances surrounding the
shooting incident will dictate the nature of the report(s)
submitted and the level of investigation and review to which
the incident is subjected. In all cases, component Senior
Management must take prompt and appropriate measures to
ensure, to the greatest extent possible, that DOJ shooting
inquiries are thorough and objective.
     3. Investigative Discretion. The decision whether a
shooting inquiry will be conducted by investigators assigned
to the field office where the incident occurred or by
investigators assigned to a component Headquarters Office of
Inspection or other Headquarters element, will be made by
designated--component Headquarters Senior Management following
consultation with field office Senior Management.
     4. Shooting Investigation Team. (“SIT”). The SIT,
regardless of origin, will be comprised of sufficient
qualified personnel to ensure that a logical, thorough,
objective, and factual inquiry is conducted and documented.
The results of this inquiry should be memorialized in a
comprehensive report appropriate for the type of shooting
being investigated.
     5. Shooting Incident Review. All shooting incident
documentation, including investigative reports, will be
reviewed by an independent review committee designated by each
component. The purpose of this committee is:

       a. to act as an objective administrative “check          and
       balance” for the reporting and investigative process;

       b. to determine the reasonableness of the application of
       deadly force, in accord with the DOJ Deadly Force Policy
       and the law; and,
       c. to provide component Senior Management with appropriate
       analyses   observations  and   recommendat1ons   concerning
       operational,   training,   and   other   relevant   issues,
       including the need for referral for further administrative
       or disciplinary review, if deemed necessary.

U.S. Department of Justice
Office of the Inspector General
                                                                54
Evaluation and Inspections Division
     6. Policy Guidelines. At a minimum, component shooting
incident policies shall include, but not be limited to, the
following:

       a. a clear definition of what constitutes a reportable
       shooting incident;

       b. instructions regarding the content of the initial
       report that a shooting incident has occurred;
       c. instructions regarding to whom, by what means
       (telephone, teletype, written communication, etc.), and
       within what time parameters shooting incidents are
       initially reported;
       d. instructions regarding the content and format of all
       documents, including investigative or administrative
       reports, relating to the shooting incident inquiry;
       e. instructions regarding deadlines for   submitting     the
       results of shooting incident inquiries;
       f. instructions regarding the composition of Shooting
       Investigation Teams and Shooting Incident Review
       Committees.

       g. instructions regarding the timely reporting of
       planning, judgment, oversight, training, safety, or other
       relevant “lessons learned” that were disclosed during the
       shooting incident inquiry and which may compromise
       operations or the safety of component personnel;
       h. instructions regarding measures to be taken,
       particularly during the investigation of operationally or
       otherwise sensitive shooting incidents, to ensure that
       DOJ shooting incident inquiries are thorough, factual,
       and objective;
       i. instructions encouraging the recognition and
       accommodation, as appropriate under the circumstances, of
       multiple interests and jurisdictions following a shooting
       incident; and,
       j. instructions regarding the need to complete the
       shooting incident review process expeditiously, to
       include documenting circumstances which may delay
       reporting, e. g. waiting results of laboratory analyses.

     7. Lessons Learned. Operational, safety, training or
other relevant issues disclosed during the investigative or
review process should be promptly communicated to component


U.S. Department of Justice
Office of the Inspector General
                                                               55
Evaluation and Inspections Division
employees, and must be incorporated in policy manuals and
training curriculae, as appropriate.
     8. Rights of Third Parties. Nothing in this policy and
the attached commentary is intended to create or does create
an enforceable legal right or private right of action.



       Commentary Regarding the Shooting Incident Reporting
                        and Review Process
                          I. Introduction

        The Department of Justice (“DOJ”) hereby establishes a
uniform policy with respect to the reporting and review of
shooting incidents. The policy and this commentary provide
practical guidance for DOJ law enforcement component officials
tasked with reporting, documenting, investigating, and
reviewing reports detailing the discharge of firearms during
the conduct of official business. The policy is intended to
ensure that (1) shooting incidents are investigated and
reviewed commensurate with the type of incident involved, and
(2) documented in a manner which is thorough, factual, and
objective.

         This policy is the product of discussions among DOJ’s
law enforcement components and the advice of their respective
offices of legal counsel. As a matter of principle, this
document does not attempt to dictate how individual components
implement the policy nor encroach upon the prerogatives of
their Senior Management, but rather establishes guidelines for
the reporting, investigation, documentation, and review of
shooting incidents.


                                 II. DEFINITIONS

     For the purposes of this policy, a “shooting incident”
means:

       (1) The intentional or unintentional discharge of a
       firearm by a DOJ law enforcement employee, on or off
       duty, under circumstances which warrant official notice
       or review. Weapons harmlessly discharged in connection
       with training or recreation are not included in this
       definition and, except as noted below, need not be
       reported.

U.S. Department of Justice
Office of the Inspector General
                                                              56
Evaluation and Inspections Division
       (2) The discharge of a firearm by anyone during the
       course of DOJ-related official business. If a shooting
       incident occurs during a DOJ joint or task force
       investigation and DOJ personnel are either not present or
       not directly involved, component Senior Management may
       exercise discretion regarding the levels of investigation
       and review to which such shooting incidents are
       subjected, and may defer subsequent investigations to
       local authorities.

       (3) The discharge of a firearm in defense against vicious
       animals.


       (4) The discharge of a firearm resulting in self-
       inflicted injuries or injuries to another person.


       (5) The discharge of a firearm by a DOJ employee
       resulting in an investigation by any law enforcement
       agency.

Reporting Requirement - the necessity for promptly advising a
designated component Headquarters Senior Manager that a
shooting incident has occurred.

Shooting inquiry - the investigative process which must follow
any shooting incident, except as noted in Paragraph (1) in the
statement of policy.

Shooting incident review - the post investigation
administrative process conducted by an independent review
committee designated by each component.

                            III. INITIAL REPORTING


     The initial report is intended to promptly (1) document
the shooting incident and (2) involve a designated Senior
Manager in appropriate oversight of the decisional and
investigative process. The initial report must contain
sufficient information to allow Senior Managers to make
informed judgments regarding the necessity, type, and
complexity of subsequent inquiries.

       Field     office     and       Headquarters   Senior   Management   will


U.S. Department of Justice
Office of the Inspector General
                                                                           57
Evaluation and Inspections Division
ensure that initial relevant details regarding the incident are
documented and will establish by whom and to what extent the
incident will be investigated.

                   IV. Shooting Incident Inquiries Generally

      Shooting incident inquiries should be conducted with due
regard for the physical, mental, and emotional well-being of
involved employees, their families, co-workers, and other
persons, including victims and witnesses. The purpose of the
investigative, reporting, and review process is to provide
Senior Management with a factual basis for evaluating
operational activities; assessing the reasonableness of the
conduct; and, determining the effectiveness of training,
planning, judgment, and other factors, which may compromise
operations or the safety of employees.

     The circumstances surrounding the shooting incident will
dictate the complexity of the investigation conducted, the
nature of the report(s) submitted, and the level of review to
which the incident is subjected. These decisions will be made
by a designated component Headquarters Senior Manager following
consultation   with  field   office  Senior   Management.  It’s
essential that sufficient oversight of this critical process be
exercised to ensure that: (a) a thorough, factual, and
objective investigation is conducted; (b) the results of the
inquiry are memorialized in a comprehensive report appropriate
for the type of incident being investigated; and (c) that
potential conflicts of interest are avoided, including even the
appearance of conflict of interest or impropriety.


     Inquiries should be conducted to achieve, at a minimum,
the following objectives:

       (l) A thorough, factual, and objective investigation;

       (2) Levels of investigative complexity and review
       appropriate for the type of incident involved;

       (3) A thoroughly documented report which is appropriate
       for the type of incident involved and includes all
       relevant information necessary for accurate and objective
       analysis;

       (4) Objective Senior Management oversight of the
       investigative and review process;

U.S. Department of Justice
Office of the Inspector General
                                                               58
Evaluation and Inspections Division
       (5) Prompt reporting of identified planning, judgment,
       oversight, training or other relevant issues which may
       compromise operations or the safety of persons involved;

       (6) Appropriate, timely recommendations to Senior
       Management regarding operational, training, safety, or
       other issues including, if necessary, referral to
       appropriate entities for further administrative or
       disciplinary review;

       (7) Prompt follow-up on findings and recommendations
       including appropriate policy or manual changes; and,

       (8) The ability to conduct meaningful shooting data and
       trend analyses.

     The shooting incident review is intended to act as a
“check and balance” for the investigative process and to
provide appropriate objective analyses, observations, and
recommendations to the component’s Senior Management.
                  V. Compliance with Policy Guidelines

     Within ninety (90) days, DOJ law enforcement components
shall modify existing shooting incident review policies as
necessary to accord with this general policy.




U.S. Department of Justice
Office of the Inspector General
                                                              59
Evaluation and Inspections Division
     APPENDIX II: SAMPLE SHOOTING INCIDENT RESPONSE
                          CARD




U.S. Department of Justice
Office of the Inspector General
                                                60
Evaluation and Inspections Division
                      APPENDIX III: ODAG RESPONSE




U.S. Department of Justice
Office of the Inspector General
                                                    61
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      62
Evaluation and Inspections Division
     APPENDIX IV: OIG ANALYSIS OF THE ODAG RESPONSE


       On August 11, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the Office of the Deputy Attorney General
(ODAG) with a request for written comments. The ODAG responded to the
OIG in a memorandum dated September 10, 2004. The ODAG concurred
with the OIG’s recommendation to establish a working group to consider
whether the Department and the components would benefit from the
adoption of uniform standards for the investigation and review of shooting
incidents. The Department also concurred with the OIG recommendations
for actions by the components and with the actions taken and planned by
the components to implement the OIG’s recommendations. Our analysis of
the ODAG’s response follows.

RECOMMENDATIONS

      Recommendation 1: Establish a working group to consider uniform
Department standards for the components’ shooting incident reviews,
including:

       A. Content and timeliness of preliminary shooting incident
          reports and investigations.

       B. Delegation of investigative responsibility, involvement of local
          authorities in criminal investigations of shooting incidents,
          and requirements for declination of prosecution.

       C. Composition of the Review Boards, application of the
          standard for determining the reasonableness of deadly force,
          and documentation of Review Board decisions.

       D. Aggregation within the Department of shooting incident data and
          lessons learned, including the preparation and distribution of
          shooting incident summaries.

      Summary of ODAG Response. The Department concurred with this
recommendation, established the working group, and plans to continue
discussions until a reasonable determination can be made with regard to
each of the issues presented in this report.

      Status of Recommendation. Recommendation 1 is Resolved – Open.
The actions planned by the Department are responsive to the
recommendation. We will close this recommendation when the Department
provides us a record of the decisions made by the working group.

U.S. Department of Justice
Office of the Inspector General
                                                                             63
Evaluation and Inspections Division
                      APPENDIX V: ATF RESPONSE




U.S. Department of Justice
Office of the Inspector General
                                                 64
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      65
Evaluation and Inspections Division
      APPENDIX VI: OIG ANALYSIS OF THE ATF RESPONSE


       On August 9, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) with a request for written comments. The ATF responded
to the OIG in a memorandum dated September 7, 2004. The ATF
concurred with all of the recommendations and agreed to participate in the
working group, establish a formal reporting relationship with the Civil
Rights Division (CRD), and improve the documentation of Review Board
findings and recommendations. Our analysis of the ATF’s response follows.

RECOMMENDATIONS

     Recommendation 1: Establish a working group to consider uniform
Department standards for the components’ shooting incident reviews.

     Summary of ATF Response. The ATF concurred with this
recommendation and agreed to participate in the working group.

       Status of Recommendation: Recommendation 1 is Resolved – Open.
The actions planned by the ATF are responsive to the recommendation. We
will close this recommendation when Departmentwide action is complete.

      Recommendation 2A: Establish a formal reporting relationship with
the CRD.

      Summary of ATF Response. The ATF concurred with this
recommendation and reported that it is working with CRD attorneys to
establish a formal reporting relationship.

       Status of Recommendation. Recommendation 2A is Resolved – Open.
The actions planned by the ATF are responsive to the recommendation. We
will close this recommendation when the ATF provides a copy of the
document formalizing the agreement.

      Recommendation 2B: Improve the documentation of Review Board
findings and recommendations.

      Summary of ATF Response. The ATF concurred with this
recommendation and plans to revise the memorandum reports of the Review
Board to include greater detail on findings and recommendations. The ATF
also plans to track each Review Board recommendation individually for
corrective action.


U.S. Department of Justice
Office of the Inspector General
                                                                       66
Evaluation and Inspections Division
       Status of Recommendation. Recommendation 2B is Resolved – Open.
The actions planned by the ATF are responsive to the recommendation. We
will close this recommendation when the ATF provides copies of the
memoranda documenting the decisions made in the cases considered at the
next meeting of the ATF Review Board.

COMMENTS ON THE FINDINGS OF THE REVIEW

      The ATF provided additional information on one of the findings made
in the review.

       Summary of ATF Response. The ATF stated that its Shooting Incident
Review Board initially considers whether the Special Agent had a reasonable
belief that the suspect posed an imminent danger of death or serious
physical injury, but also considers the totality of the incident to determine if
any of the Special Agent’s actions were inappropriate.

       OIG Analysis. The ATF did not find the use of deadly force to be
unreasonable or impose any discipline for inappropriate actions by ATF
Special Agents in any case we reviewed. Accordingly, our review could not
fully evaluate the ATF’s application of the standard for determining the
reasonableness of the use of deadly force.




U.S. Department of Justice
Office of the Inspector General
                                                                           67
Evaluation and Inspections Division
                     APPENDIX VII: DEA RESPONSE




U.S. Department of Justice
Office of the Inspector General
                                                  68
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      69
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      70
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      71
Evaluation and Inspections Division
   APPENDIX VIII: OIG ANALYSIS OF THE DEA RESPONSE


      On August 9, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the Drug Enforcement Administration (DEA)
with a request for written comments. The DEA responded to the OIG in a
memorandum dated September 1, 2004. The DEA concurred with all of the
recommendations made in the report. Our analysis of the DEA’s response
follows.

RECOMMENDATIONS

      Recommendation 3A: Improve the consistency and timeliness of
shooting incident reports.

       Summary of DEA Response. The DEA concurred with the
recommendation and plans to issue a teletype by October 1, 2004, to its
field offices reaffirming the existing policy requirements to consistently
report shooting incidents on a timely basis. The DEA has instituted an
incremental reporting system consisting first of an immediate telephone
notification to DEA Headquarters. For shooting incidents declared critical
incidents by the Chief of Operations, developments at the shooting scene are
transmitted via facsimile within six hours of the incident to DEA
Headquarters. All shooting incidents require a written summary of events
within a 24-hour period to DEA Headquarters, with regular follow-up
reporting to DEA offices investigating the shooting incidents as deemed
necessary. The incremental reports allow the DEA to manage shooting
incidents through ongoing communication.

       Status of Recommendation. Recommendation 3A is Resolved – Open.
The actions planned by the DEA are responsive to the recommendation. We
will close this recommendation when the DEA provides a copy of the
teletype and documentation of its incremental reporting system.

      Recommendation 3B: Ensure compliance with its Civil Rights
Division (CRD) reporting agreements.

      Summary of DEA Response. The DEA concurred with this
recommendation and indicated that it plans to improve internal procedures
to ensure that all incidents resulting in injury or death are reported to the
CRD. The Office of Professional Responsibility (OPR) will continue to serve
as the responsible office for coordination with the CRD as outlined in the
September 12, 2000, agreement. To further ensure compliance, DEA
Headquarters Command Center will modify its notification protocols to


U.S. Department of Justice
Office of the Inspector General
                                                                         72
Evaluation and Inspections Division
include the OPR on all shooting incidents, and not only those involving
injury or death.

       Status of Recommendation. Recommendation 3B is Resolved – Open.
The actions planned by the DEA are responsive to the recommendation. We
will close this recommendation when the DEA provides a copy of its
modified notification protocols.

      Recommendation 3C: Consider changing the composition of its
Review Board and including outside members on its Review Board.

     Summary of DEA Response. The DEA concurred with this
recommendation, and DEA executive staff will consider modifying the
composition of the Shooting and Assault Incident Review Committee (Review
Board).

       Status of Recommendation. Recommendation 3C is Resolved – Open.
The action planned by the DEA is responsive to the recommendation. We
will close this recommendation when the DEA informs us of the results of
its reconsideration of the Review Board’s membership.

      Recommendation 3D: Improve documentation of Review Board
findings and recommendations.

      Summary of DEA Response. The DEA concurred with this
recommendation and plans for the Office of Inspections to immediately
include appropriate recommendations, lessons learned, and other
observations in Review Board memoranda to Special Agents in Charge.

       Status of Recommendation. Recommendation 3D is Resolved – Open.
The action planned by the DEA is responsive to the recommendation. We
will close this recommendation when the DEA provides memoranda
documenting the decisions made in the cases considered at the next
meeting of the Review Board.

      Recommendation 3E: Improve the timeliness of reviews of shooting
incidents.

       Summary of DEA Response. The DEA concurred with this
recommendation, and the Office of Inspections plans to schedule Review
Board meetings every 90 days. The DEA attributed the lengthy review times
to the fact that the DEA does not have personnel dedicated solely to
investigating shooting incidents. Nonetheless, the DEA acknowledged that
it can reduce the length of time taken to complete reviews.



U.S. Department of Justice
Office of the Inspector General
                                                                          73
Evaluation and Inspections Division
       Status of Recommendation. Recommendation 3E is Resolved – Open.
The action planned by the DEA is responsive to the recommendation. We
will close this recommendation when the DEA submits a schedule and
record of the Review Board meetings held from September 2004 through
September 2005.




U.S. Department of Justice
Office of the Inspector General
                                                                  74
Evaluation and Inspections Division
                        APPENDIX IX: FBI RESPONSE




U.S. Department of Justice
Office of the Inspector General
                                                    75
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      76
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      77
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      78
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      79
Evaluation and Inspections Division
      APPENDIX X: OIG ANALYSIS OF THE FBI RESPONSE


      On August 9, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the Federal Bureau of Investigation (FBI) and
requested written comments. The FBI responded to the OIG in a
memorandum dated September 27, 2004. Our analysis of the FBI’s
response follows.

RECOMMENDATIONS

     Recommendation 1: Establish a working group to consider uniform
Department standards for the components’ shooting incident reviews.

     Summary of FBI Response. The FBI concurred with this
recommendation and agreed to participate in the working group.

       Status of Recommendation: Recommendation 1 is Resolved – Open.
The actions planned by the FBI are responsive to the recommendation. We
will close this recommendation when Departmentwide action is complete.

      Recommendation 4A: Ensure compliance with its Civil Rights
Division (CRD) reporting agreements.

      Summary of FBI Response. The FBI concurred with the
recommendation. The FBI also stated that it has substantially complied
with CRD reporting requirements and noted that in a shooting incident
described in the report a CRD official who served on the FBI Shooting
Incident Review Group (SIRG) was aware of the incident.

      OIG Analysis. The FBI’s statement that a CRD attorney serves on the
FBI SIRG is correct. However, in the shooting incidents we reviewed, the
SIRG conducted its review an average of 184 days after the incident.
Therefore, CRD participation in the SIRG review is not a substitute for
investigative oversight based on the immediate report required by the FBI’s
agreement with the CRD.

       Status of Recommendation. Recommendation 4A is Resolved – Open.
The actions planned by the FBI are responsive to the recommendation. We
will close this recommendation when the FBI provides us with
documentation of timely reports to the CRD of all shooting incidents
through December 31, 2004.

      Recommendation 4B: Establish specific criteria for when to delegate
shooting incident investigations to field offices.

U.S. Department of Justice
Office of the Inspector General
                                                                          80
Evaluation and Inspections Division
       Summary of FBI Response. The FBI concurred with this
recommendation and stated that by December 31, 2004, it will establish
specific guidelines on the delegation of investigations. The FBI also noted
that delegating a shooting incident investigation to the field does not
necessarily compromise the independence and legitimacy of the
investigation.

       Status of Recommendation. Recommendation 4B is Resolved – Open.
The actions planned by the FBI are responsive to the recommendation. We
will close this recommendation when the FBI provides us with
documentation of its new guidelines.

      Recommendation 4C: Consider requesting local criminal
investigations of shooting incidents and avoid duplication of local criminal
investigations.

     Summary of FBI Response. The FBI concurred with this
recommendation and by December 31, 2004, will consider the merits and
demerits of requesting local criminal investigations of shooting incidents.

       Status of Recommendation. Recommendation 4C is Resolved – Open.
The actions planned by the FBI are responsive to the recommendation. We
will close this recommendation when the FBI provides us a memorandum
record of its decision regarding involving local authorities in the criminal
investigation of FBI shooting incidents.

COMMENTS ON THE FINDINGS OF THE REVIEW

       The FBI also provided comments regarding four of the findings in the
draft report.

1. Cases of Mistaken Identity

       Summary of FBI Comments. The FBI objected to our inclusion of case
examples comparing Review Board findings in two shooting incidents. The
FBI also stated that readers will likely infer from our comparison that the
OIG has drawn conclusions about the reasonableness of the shootings in
the different examples. The FBI also commented on perceived factual
differences in our comparison of the Review Board findings in two incidents
in which law enforcement officers fired at a suspect in a vehicle that was
driving away. Finally, the FBI noted that one of the incidents we reviewed is
the subject of pending civil litigation.




U.S. Department of Justice
Office of the Inspector General
                                                                         81
Evaluation and Inspections Division
       OIG Analysis. The FBI’s statement that our comparison of Review
Board decisions in similar cases inherently implies that one of the Review
Boards must have erred, is incorrect. In our report, we discuss the facts
documented in completed investigations and Review Board files. We
concluded that the determinations made by the Review Boards were
consistent with each component’s policy and practice, and with Resolution
13. Nonetheless, our analysis showed that the Review Boards were
considering the circumstances surrounding shooting incidents in different
ways and applying the standards for the reasonable use of deadly force
differently. We did not state, or imply, that we had reached any conclusion
on the reasonableness of the conclusions of any of the Review Boards.
Rather, we used these examples to support our recommendation that the
Department consider establishing a uniform application of the standard for
determining the reasonableness of the use of deadly force.

       The FBI also commented on the alleged factual differences in the
examples. While no two incidents are exactly alike, the incidents we
described were similar enough to demonstrate how Review Boards apply
different standards with regard to similar incidents.

        Finally, with regard to the FBI’s comment regarding pending civil
litigation and the potential for the plaintiff to seek discovery from the OIG,
we did not make any comments – explicitly or implicitly – in the report
regarding the merits of any pending litigation. Moreover, the OIG regularly
discusses cases in its reports even when there is ongoing litigation regarding
those cases. By discussing those cases, we are not commenting on any of
the issues involved in the litigation. We do not believe we should remove
discussions of examples in OIG reports simply because they also relate to
litigation.

2. Compelled Statements

       Summary of FBI Comments. The FBI asserted that the OIG report
cited four FBI shooting incidents, when in actuality four different FBI agents
discharged their weapons in one incident. The FBI also stated that it
properly compelled administrative statements from the four Special Agents
and described the process used to compel the statements.

       OIG Analysis. The FBI’s comment that the compelled statements
involved four Special Agents in a single shooting incident is not accurate.
There were two separate shooting incidents involving the same four Special
Agents that took place late one night and early the next morning at different
locations. The FBI Review Board considered the incidents separately. More
importantly, we included this example because it relates to the differences
between the FBI’s actions regarding compelling statements and the actions

U.S. Department of Justice
Office of the Inspector General
                                                                         82
Evaluation and Inspections Division
of the DEA in similar cases we reviewed. Because of these and other
inconsistencies, we recommended that the Department establish a working
group to consider uniform Department standards for shooting incident
reviews.

3. Reporting to the OIG

       Summary of FBI Comments. The FBI asserted that it did not report
ten shooting cases to the OIG and it was not required to do so under the
existing agreement with the OIG because the FBI did not believe the
shootings involved serious misconduct. The FBI stated that since July
2004, pursuant to a change in reporting requirements requiring all
shootings to be reported to the OIG, the FBI has in fact notified the OIG of
every shooting incident.

      OIG Analysis. Although the FBI stated that it did not report ten
shooting incidents because it did not believe the incidents involved serious
misconduct, we found that the FBI conducted a criminal investigation in
each case. The FBI has been required to report potential criminal
wrongdoing or other serious misconduct to the OIG since July 11, 2001.
Under this requirement, firearms discharges are reportable to the OIG
except those in connection with training or off duty sports and hobbies. As
such, the ten incidents should have been reported. The July 27, 2004,
memorandum cited by the FBI reiterated the existing reporting requirement
in order to eliminate any confusion over the requirement to report firearms
discharges. The FBI’s statement that it is now reporting all shooting
incidents to the OIG is consistent with the requirement.

4. Review of Shooting Incidents

      Summary of FBI Comments. The FBI asserted that its Review Board
is scheduled to meet monthly if there are shooting incidents to review.

      OIG Analysis. The information contained in the draft report was
provided by FBI administrative personnel responsible for scheduling the
Review Board meetings. Because we received conflicting statements from
FBI employees regarding the scheduling of the meetings, we removed any
reference to FBI scheduling of Review Board meetings from our report.




U.S. Department of Justice
Office of the Inspector General
                                                                         83
Evaluation and Inspections Division
                    APPENDIX XI: USMS RESPONSE




U.S. Department of Justice
Office of the Inspector General
                                                 84
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      85
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      86
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      87
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General
                                      88
Evaluation and Inspections Division
   APPENDIX XII: OIG ANALYSIS OF THE USMS RESPONSE


      On August 9, 2004, the Office of the Inspector General (OIG) sent
copies of the draft report to the United States Marshals Service (USMS) with
a request for written comments. The USMS responded to the OIG in a
memorandum dated September 7, 2004, and concurred with all of the
recommendations. Our analysis of the USMS’s response follows.

RECOMMENDATIONS

      Recommendation 5A: Streamline the shooting incident reporting
system to improve the consistency and timeliness in reporting shooting
incidents.

      Summary of USMS Response. The USMS agreed with the
recommendation and has implemented procedural changes to improve the
consistency and timeliness of shooting incident reports. Specifically, the
Chief, USMS Communications Center, will forward all Significant Incident
Reports involving shooting incidents to the Office of Inspections. These
reports will contain sufficient information to make decisions on the
necessity, type, and complexity of subsequent investigations.

       Status of Recommendation. Recommendation 5A is Resolved – Open.
The actions planned by the USMS are responsive to the recommendation.
We will close this recommendation when the USMS provides copies of the
Significant Incident Report Forms on the next six USMS shooting incidents.

      Recommendation 5B: Establish a formal reporting relationship with
the Civil Rights Division (CRD).

      Summary of USMS Response. The USMS agreed with the
recommendation and acknowledged its responsibility and intent to establish
a formal reporting relationship with the CRD. The USMS explained that in
the past, the USMS relied on the OIG Investigations Division to report
shooting incidents to the CRD and provided a case example as supporting
evidence of this practice.

      Status of Recommendation. Recommendation 5B is Resolved – Open.
The actions planned by the USMS are responsive to the recommendation.
We will close this recommendation when the USMS provides a copy of the
document formalizing the agreement with the CRD.

    Recommendation 5C: Consider including outside members on the
USMS Shooting Review Board.

U.S. Department of Justice
Office of the Inspector General
                                                                        89
Evaluation and Inspections Division
      Summary of USMS Response. The USMS agreed with the
recommendation and will consider including outside members on future
Review Boards, but stated that the use of criminal investigations conducted
by state and local law enforcement agencies provides sufficient objectivity
for accurate and objective analysis.

       Status of Recommendation. Recommendation 5C is Resolved – Open.
The action planned by the USMS is responsive to the recommendation. We
will close this recommendation when the USMS provides a copy of the
document recording management’s decision regarding the inclusion of
outside members on the Review Board.

COMMENTS ON THE FINDINGS OF THE REVIEW

     The USMS provided additional information on four of the findings
made in the report.

1. Application of the Standard for Use of Deadly Force

      Summary of USMS Response. The USMS stated that its Review Board
considers what occurred at the moment the Deputy Marshal discharged his
or her weapon and the actions of the Deputy Marshal before discharging his
or her firearm to determine if the use of deadly force was reasonable.

       OIG Analysis. We did not state that the USMS Review Board did not
consider the moment the Deputy Marshal discharged his or her weapon, but
rather that the Review Board also considered the circumstances leading to
the incident and the reasonableness of the Deputy Marshal’s use of deadly
force in light of those circumstances. The USMS confirmed this by stating
in its response:

       In its deliberations, the USMS Shooting Review Board
       considers the following: At the time the Deputy U.S. Marshal
       discharged his or her weapon, did the Deputy have a
       reasonable belief that the Deputy or another person was in
       imminent danger of death or serious physical injury from the
       person who was the subject of the deadly force? The answer
       to this question may depend on what the Deputy did before
       discharging his or her firearm, and the USMS does take that
       into account.

2. Incorporation of Shooting Incidents Into Training




U.S. Department of Justice
Office of the Inspector General
                                                                        90
Evaluation and Inspections Division
       Summary of USMS Response. The USMS stated that it did not intend
to prohibit the Training Academy’s Review Board member from discussing
the facts of shooting incidents with other instructors at the Academy. The
USMS reported that its policy, which does prohibit Review Board members
from disclosing Board deliberations, was not intended to prevent Training
Academy instructors from utilizing the facts of shooting incidents in
training.

      OIG Analysis. Our review found that it was the understanding of the
Training Academy Review Board member that he was prohibited from
disclosing the facts of specific shooting incidents. We agree with the USMS
that this interpretation of the USMS policy should be corrected and shooting
incident examples should be utilized in training.

3. Sharing Information on Shooting Incidents

      Summary of USMS Response. The USMS reported that it did ask the
FBI, the DEA, and other law enforcement agencies for information on vehicle
containment and that the DEA provided the USMS with a training video.

      OIG Analysis. We acknowledge that the USMS gathered information
related to vehicle containment from other components and found that the
DEA technique for vehicle containment may not always be appropriate for a
USMS fugitive investigation. However, the USMS has not provided any
information on its efforts to develop vehicle containment techniques that are
appropriate for USMS fugitive investigations and its efforts to train Deputy
Marshals in those techniques. As we noted in the report, the purpose of
aggregating data is to identify problems and long-term trends so that
components can proactively test and implement new tactical techniques.

4. Actions Taken in Response to the Review

        Summary of the USMS Response. The USMS stated that its decision
to create an Office of Inspections, prepare summaries of shooting incidents
for all operations personnel, and hold Review Board meetings every three
months was not based on the OIG’s review.

      OIG Analysis. In our report, we noted that during our review the
USMS created the Office of Inspections, began to prepare shooting
summaries, and began holding quarterly Review Board meetings. We did
not state that the USMS took the actions in response to our review. It is our
standard practice to acknowledge ongoing efforts of components to improve
operations related to our reviews.




U.S. Department of Justice
Office of the Inspector General
                                                                        91
Evaluation and Inspections Division
